<html>
<title> - THE FUTURE OF THE FEDERAL COURTHOUSE CONSTRUCTION PROGRAM: RESULTS OF A GOVERNMENT ACCOUNTABILITY OFFICE STUDY ON THE JUDICIARY'S RENTAL OBLIGATIONS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 THE FUTURE OF THE FEDERAL COURTHOUSE CONSTRUCTION PROGRAM: RESULTS OF 
  A GOVERNMENT ACCOUNTABILITY OFFICE STUDY ON THE JUDICIARY'S RENTAL 
                              OBLIGATIONS

=======================================================================

                                (109-83)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                    U.S. GOVERNMENT PRINTING OFFICE

30-653 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)




 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

                  BILL SHUSTER, Pennsylvania, Chairman

JIM GERLACH, Pennsylvania            ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas, Vice-Chair    Columbia
CHARLES W. DENT, Pennsylvania        MICHAEL H. MICHAUD, Maine
JOHN R. `RANDY' KUHL, Jr., New York  LINCOLN DAVIS, Tennessee
DON YOUNG, Alaska                    JULIA CARSON, Indiana
  (Ex Officio)                       JAMES L. OBERSTAR, Minnesota
                                       (Ex Officio)

                                 (iii)


                                CONTENTS

                               TESTIMONY

                                                                   Page
 Goldstein, Mark, Director, Physical Infrastructure Issues, 
  Government Accountability Office...............................     7
Roth, Judge Jane R., U.S. Court of Appeals for the Third Circuit, 
  Chair, Judicial Conference Committee on Security and 
  Facilities, statement..........................................    18
 Winstead, David L., Commissioner, Public Buildings Service, 
  General Services Administration, accompanied by Robert 
  Andrukonis, Director, Center for Courthouse Programs, General 
  Services Administration........................................    18

           PREPARED STATEMENT SUBMITTED BY A MEMBER CONGRESS

Norton, Hon. Eleanor Holmes, of the District of Columbia.........   169

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Goldstein, Mark.................................................    43
Roth, Judge Jane R...............................................   176
Winstead, David L................................................   267

                       SUBMISSIONS FOR THE RECORD

 Goldstein, Mark, Director, Physical Infrastructure Issues, 
  Government Accountability Office, report, "Federal Courthouses: 
  Rent Increases Due to New Space and Growing Energy and Security 
  Costs Require Better Tracking and Management", June 2006.......    60
Roth, Judge Jane R., U.S. Court of Appeals for the Third Circuit, 
  Chair, Judicial Conference Committee on Security and 
  Facilities:

  Status of the Judiciary's Study on Courtroom Use...............    30
  Judiciary Staffing Formulas....................................    41
  ...............................................................
  Letter from Leonidas Ralph Mecham, Director, Administrative 
    Office of the U.S. Courts, June 6, 2006......................   187
  Letter, Hon. Benson Everett Legg, Chief Judge, U.S. District 
    Court, District of Maryland, to Cathy McCarthy, Deputy 
    Associate Director, Administrative Office of the U,S, Courts, 
    Office of Management, Planning and Assessment, June 2, 2006..   217
  Comments on GAO's Statement of Facts concerning U.S. Courts 
    Rent Exemption Study, memorandum, May 4, 2006................   220
  Letter from Leonidas Ralph Mecham, Director, Administrative 
    Office of the U.S. Courts to David Bibb, Acting 
    Administrator, General Services Administration, May 10, 2006.   261
  Letter to Representatives Young, Shuster, Oberstar and Delegate 
    Norton, May 24, 2006.........................................   265

                         ADDITION TO THE RECORD

Space Management Initiatives in the Federal Courts, Space and 
  Facilites Advisory Group, March 1996...........................   281


 THE FUTURE OF THE FEDERAL COURTHOUSE CONSTRUCTION PROGRAM: RESULTS OF 
           A GAO STUDY ON THE JUDICIARY'S RENTAL OBLIGATIONS

                              ----------                              


                        Thursday, June 22, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Economic Development, Public Buildings and 
            Emergency Management, Washington, D.C.
    The subcommittee met, pursuant to call, at 11:00 a.m., in 
room 2167, Rayburn House Office Building, Hon. Bill Shuster 
[Chairman of the committee] presiding.
    Mr. Shuster. The Subcommittee will come to order.
    I want to welcome everybody here this morning. We are here 
today because, over a year ago, the Judiciary requested a 
permanent rent exemption from the Federal Buildings Fund, 
claiming that rising GSA rent payments were creating a fiscal 
crisis. OMB and GSA have reviewed the request and have denied 
it.
    Concerned about the effect a waiver would have on the 
Federal Buildings Fund, this Committee asked the GAO, in April 
of 2005, to review the reasons why the Judiciary's rent was 
increasing, the impact of a permanent exemption from the 
Federal Buildings Fund, and how the Judiciary plans and 
accounts for rent increases. We wanted to know if the claims 
that the Judiciary was a ``profit center'' for GSA were 
accurate.
    Last June, the GAO testified before this Subcommittee on 
the impact such an exemption would have on the Fund. This 
report satisfies the remaining issues: to review the reasons 
why the Judiciary's rent increased and how the Judiciary plans 
and accounts for rent increases.
    The Judiciary courthouses construction program has been of 
great concern to this Subcommittee recently. As of May 2006, 
the Courts occupied over 41 million rentable square feet, more 
than triple the amount of space it occupied over 30 years ago. 
Over the last ten years, Courts have received 46 new 
courthouses or annexes at a cost of $3.4 billion from the 
Federal Buildings Fund. This increase in space can be easily 
characterized as a construction boom. With any increase in 
space, one should expect an increase in cost and the Courts' 
construction boom resulted in just that.
    The GAO investigation revealed a direct correlation between 
the increase in rent and the increase in space. The rent 
increase for the five year period from 2000 to 2005 was 27 
percent. Of that, 19 percent was directly attributed to space 
increases, and the remainder resulted from increased security 
and rising utility costs, which are uniform throughout the 
Federal Government. The Judiciary's construction boom has 
directly contributed to the Judiciary's escalating rent costs.
    In fact, this rent increase should come as no surprise to 
the Courts. Over ten years ago, the Judicial Conference 
recognized the need to reduce the future growth of overall 
space rental costs. A March 1996 plan by the Security, Space 
and Facilities Committee of the Judicial Conference recognized 
proposed solutions that could address rising rent costs, 
including the release of excess space, courtroom sharing, 
updating space standards, and limiting the Design Guide 
discretion. The Judiciary understood the ramifications of the 
building boom, yet implemented few of their own recommendations 
for reform. Failures over the past ten years to address these 
growing problems have culminated in a request for a permanent 
rent exemption. The Courts failed to manage their space 
requirements and has asked for the equivalent of a ``get out of 
jail free'' card. The GAO findings only solidify my, and I 
believe this Committee's, stance against such a rent waiver.
    Additionally, the GSA has made numerous proposals to the 
Courts to help lower rent and cut costs. I am also aware that a 
majority of the proposals were rejected by the Judiciary. I 
recommend, in addition to suggestions made today by members of 
this Subcommittee and those testifying, that the Judiciary 
reevaluate their stance on the GSA cost saving proposals.
    The Federal Buildings Fund was created not only to maximize 
efficiencies in the construction and maintenance of buildings, 
but also to ensure that the occupants acquired new space in a 
responsible manner. Tenants must make choices and balance their 
demand for space with their other expenses. By law, GSA charges 
all tenants, including the Judiciary, commercially equivalent 
charges for the space they occupy.
    I like to compare this to a family's decision to purchase a 
home. The family may love the 10,000 square foot mansion, but 
may only be able to afford the more conservative 3,000 square 
foot home. The family is not driven by desire alone. Financial 
restraints weigh in and the family ends up in a home driven by 
space needs and economic reality. The Federal Buildings Fund is 
intended to force the same economic considerations by agencies 
and prevent poor space utilization and a drain on the taxpayer.
    The finding of the GAO report is the fact that the Federal 
Buildings Fund worked exactly as intended. GAO, GSA, and this 
Committee are all well aware of this fact.
    I am also concerned with the claims of the GSA errors in 
rent bills and inaccurate appraisals. The Judiciary claims over 
$38 million in overcharges and faulty appraisals. GSA should 
not be overcharging tenants and if appraisals are inaccurate, 
they need to be corrected. The Government's professional 
landlord should strive for excellence. I am eager to hear how 
the GSA is addressing these concerns and solving the problem.
    I am pleased to see the Federal Building Fund working as 
originally intended. I am certain its creators would be pleased 
with GAO's findings and proof that the Fund is providing a 
check to the Courts' growth through economic restraint. To 
provide the Judiciary with a rent exemption would be disaster 
for the Federal Buildings Fund and the Government's ability to 
control its real property needs.
    I look forward to hearing from all the witnesses today.
    With that, I would like to recognize our Ranking Member, 
Ms. Norton, from the District of Columbia, for any opening 
statement she may have.
    Ms. Norton. Thank you very much, Mr. Chairman. I appreciate 
this hearing. I think it is an important hearing. I hope it is 
a hearing that gets us to the problem-solving that this 
Committee, under your leadership, has sought all along.
    Mr. Chairman, a year ago yesterday, June 21st, the 
Subcommittee met right in this room to hear testimony regarding 
funding the Judiciary's current and future space needs. Many of 
the witnesses at that hearing are with us again today, and we 
welcome them.
    At that hearing, the Judiciary, as well as the GSA, 
committed to a series of actions that each entity would 
undertake to control the Courts' runaway rental costs. The 
Committee did its part by asking the GAO to review how the 
Courts budget for rent, how GSA accounts for rent, and what 
impact the Courts' rent relief request of nearly $500 million 
would have on the Federal Building Fund.
    However, the Courts chose not to respect the fair and 
orderly fact-finding process this Committee developed. Instead, 
they convinced some Senate and House Judiciary Committee 
members unaware of this dispute, committees that have no 
jurisdiction over the matters before us, to introduce 
legislation that would, in effect, cap what the Courts would 
pay into the Federal Building Fund. They took this action long 
before the requested GAO report was finished, long before they 
had finished doing what they had committed to do, long before 
the GSA had finished its attempts to identify and renegotiate 
court leases and, of course, without consultation with you, Mr. 
Chairman, or with any member of this committee of jurisdiction.
    However, in accordance with standard practice, the 
Parliamentarian referred the House bill that the Courts sought 
to this Committee, the committee of jurisdiction. This puts the 
Courts back where they started, and worse. Rather than work 
with the Subcommittee to get at the roots of the problem, their 
solution of choice was to go around this Subcommittee and limit 
their own exposure by trying to thrust onto other agencies of 
the Federal Government--who are feeling the impact of spending 
and deficit just as much as the Courts are--thrust on other 
agencies of the Federal Government the burden of subsidizing 
the Courts' spending habits through the Building Fund.
    However, there is no way to circumvent this Committee. 
Let's try, instead, to try to solve the Courts' problems.
    We are here this morning primarily to hear from the GAO 
regarding our request. However, in preparation for today's 
hearing, I reviewed the June 2005 hearing record to refresh my 
memory on exactly what GSA and the Courts committed to doing to 
address the persistent rent problem of the Courts. In 
recognition of its rent predicament, in March 2004, the Courts 
imposed a one year moratorium on court construction. In March 
2005, the Judicial Conference voted to extend the moratorium 
for one year. Also, in 2005, the Courts Security and Facilities 
Committee committed to reviewing the space standards in the 
Design Guide with--and I am quoting them from the record--``an 
emphasis on controlling courts.''
    You yourself, Mr. Chairman, noted that space for judges had 
increased 23 percent, with the average space for judges' 
chambers at 2800 square feet, as compared with 1200 square feet 
for members of Congress. Understand, that in the 1200 square 
feet, we are not talking about--I clerked in the Federal 
courts--we are not talking about room for a clerk or two, a 
secretary; we are talking about all of us. And the average 
member of Congress has 20 staff members, some of them in the 
District offices. All of us in those 1200 feet.
    Now, I am not trying to suggest, by pointing that out, that 
the Courts should be crammed as we are crammed. I am saying 
that right now a judge's chambers are twice all of the space 
members have for themselves and members of their own staff, 
usually at least a dozen here in the House of Representatives.
    Further, the same Committee began a long-range evaluation 
of its planning process by examining staff and judgeship 
growth, as well as the space standard used for estimating 
square footage needs.
    Finally, in order to release unneeded and underutilized 
space, the Space Committee, under Judge Roth's leadership, 
wrote to all judges requesting that they cancel pending space 
requests wherever possible. Judges were also requested to 
recommend closure of visiting facilities without a full-time 
resident judge. They also were to reexamine criteria for 
nonresident visiting judges and the release of space in 
probation and pretrial services. All that from the record of 
that hearing.
    Thus, from these actions undertaken by the Courts, the 
Committee should be able to expect the following information:
    What changes were made to the Design Guide, which governs 
the size, shape, and attributes of courthouses? What is the 
anticipated saving associated with each of those changes?
    How many facilities without a full-time judge were 
recommended to be closed? What is the anticipated savings 
associated with this action item?
    What is the status of the moratorium? Has it been extended 
for another year? What space criteria have been developed for 
nonresident visiting judges?
    What did the review of probation and pretrial services 
space produce? What are the savings associated with the release 
of this type of space?
    You answer these kind of questions, we can get down to what 
is left: What can we do?
    In addition to these actions taken by the Courts, GSA has 
also been tasked to address certain issues. During the June 
2005 hearing, the then Commissioner committed to the following: 
hiring a third-party consultant to verify the accuracy of the 
rent bills;--that analysis was to be completed during the 
summer of 2005--offered to work with the Courts to dispose of 
underutilized courthouse space based on the list provided by 
the Courts; offered to reduce the scope of new projects; 
offered to reduce the level of finishes; and offered to 
renegotiate existing leases in private sector buildings. That 
GSA all committed or offered to do. I hope these actions 
produce the results the Committee expected and I, of course, 
await GSA's testimony.
    Before I close, Mr. Chairman, I would like to bring to your 
attention and the attention of other Subcommittee members a 
report prepared in 1996 by the Administrative Office of the 
Courts at the direction of and for the Judicial Conference. 
This report is entitled ``Space Management Initiatives in the 
Federal Courts.'' And I would like to submit a copy for the 
record.
    What is remarkable about this report, Mr. Chairman, is not 
the cost controlling recommendations, it is not that cost 
controlling recommendations were made a decade ago, but they 
have such a familiar ring. I won't quote them all, but they 
talk about personnel levels restricted to 84 percent of 
staffing formulas. Of course, the Courts have continued in the 
opposite direction, at 100 percent. And, yes, they talked about 
shared space.
    In fact, I would like to quote what the report said about 
courtroom sharing. ``The Congress has asked the Judiciary to 
consider sharing courtrooms and to determine the impact of a 
judge's ability to try cases if courtroom sharing were 
implemented. The Court Administration and Case Management 
Committee, working in conjunction with other appropriate 
committees ... should be tasked by the Conference to determine 
what policy on courtroom sharing for active and senior judges 
should be adopted, and whether the impact of any delays that 
would result for sharing courtrooms will adversely affect case 
processing.''
    So here we have, Mr. Chairman, recommendations from a 
decade ago from the Courts' own staff, and still the Courts 
have not acted to institutionalize this concept in its 
planning. In this recommendation, the AOC does say if courtroom 
sharing should take place--it does not say if courtroom sharing 
should take place, it assumes it will and recommends that a 
policy be determined.
    Further, Mr. Chairman, the AOC suggests this policy cover 
active, as well as senior judges. And, finally, they ask for 
impact analysis linking possible delay with courtroom sharing. 
All of that is very fair.
    Additionally, this report does address usage data, and I 
quote: ``The Administrative Office will be required to provide 
inventory and usage data on a per capita or other basis to 
judicial counsels.''
    As I understand it, Mr. Chairman, this is precisely the 
type of data you have been trying to get for over a year, and 
here it is recommended to be collected over a decade ago.
    Mr. Chairman, the very first paragraph of the 1996 report 
acknowledged the report of having centralized rent payment 
process driven by decentralized approval and use. In 2006, the 
GAO identified centralized payment system as a source of 
problems with efficient space management. In 1996, the 
Administrative Office of the Courts recognized the link between 
maintaining appropriate staffing levels and sufficient funds to 
pay its rent bill. Thus, it is dismaying to learn that, a 
decade later, instead of making space decisions with an eye 
toward maintaining an 84 percent staffing level, the Courts 
have moved in the opposite direction and insist on making space 
decisions based on 100 percent staffing, which, of course, 
makes it more difficult to pay rent bills.
    GSA is not to be held blameless for this rent fiasco. For 
some time now the agency has been more of a lapdog for its 
clients, instead of protecting the taxpayers. Time and again 
over the past decade the Agency has allowed its clients to 
redesign, reassign, and rethink space decisions, with no 
thought of the financial consequences borne by the taxpayers. 
The number of amended resolutions has steadily grown, as has 
the cost of the court program. GSA has given the impression to 
clients that they, the agencies, are the real estate experts, 
not GSA.
    Where GSA should be leading, GSA is, at best, walking hand-
in-hand with its clients, and now the Congress is simply going 
to have to lay down the law. For example, staff recently 
inquired of GSA why there was planned to be not one, not two, 
but three fitness centers in the San Diego Courthouse for about 
a dozen and a half judges and U.S. marshals. GSA replied that 
that was what the client wanted.
    I understand, since the staff made something of a fuss over 
the fitness centers, that the number has been reduced to two. 
And I am sure the taxpayers will be glad that, instead of 
three, there are only two fitness centers in courthouses that 
now want to make 100 percent use their space with no sharing of 
space. And the reason, apparently, is staff has been told the 
marshals refuse to share with the judges. Where was the GSA in 
all of this? Why were three planned in the first place?
    Mr. Chairman, I am not naive enough to believe the 
necessary changes will happen overnight or that they will 
happen willingly. We certainly know they don't happen 
willingly, because the Courts have simply defied this 
Subcommittee. But I am recommending that we continue the 
practice put in place last year, that is, to withholding 
authorizing new additions to the Courts' inventory until 
Congress gets the utilization report being prepared by the 
Federal Judicial Center and details on real savings and 
programs put in place by the Courts and the GSA to really 
control spending.
    I don't see how we can ask everybody else, every committee, 
every appropriation to make those savings and say to the 
Courts, everybody but you. We are not going to do it. And this 
Congress--not only this Subcommittee, this Congress is going to 
have none of it. This Committee has a long history of 
bipartisan--indeed, nonpartisan--action. We are problem-solvers 
of management issues that fly under the radar here on Capitol 
Hill, but have significant financial consequences. The 
decisions we are talking about today have significant financial 
consequences at a time when Congress is having to cut public 
programs that are vitally necessary to the people of this 
Country.
    Under your leadership, we can get our hands wrapped around 
this problem once and for all, and we can provide an efficient 
framework for GSA and the Courts to make asset management 
decisions. As I mentioned last year, however, Mr. Chairman, 
legislation may be necessary, and I am putting the finishing 
touches on draft legislation that I am asking my staff to share 
with your staff to get their comments and your views.
    I think some remedial action may well be necessary, unless 
we are going to continue going around Robin Hood's barn like 
this. Some such action may be necessary, and I welcome, of 
course, your thoughts. I certainly welcome the thoughts of 
those who will be testifying before us today. But I think 
everybody should be warned. We have had it. We need to solve 
the problem.
    Thank you, Mr. Chairman. And I welcome today's witnesses.
    Mr. Shuster. Thank you, Ms. Norton.
    I would like to welcome Mr. Goldstein back, as well as 
Judge Roth and Commissioner Winstead. Thank you for being here 
today.
    Oh, I recognize the gentleman from Arkansas.
    Mr. Davis. Tennessee.
    Mr. Shuster. Tennessee. I am sorry.
    Mr. Davis. I look forward to the testimony and will reserve 
any comments.
    Mr. Shuster. Thank you.
    With that, I ask unanimous consent that our witnesses' full 
statements be included in the record. Without objection, so 
ordered.
    Since your written testimony has been made part of the 
record, we would request that you limit your testimony to a 
five minute summary of your testimony.
    We have two panels of witnesses today. On our first panel 
we have one witness, Mr. Mark Goldstein, Director of Physical 
Infrastructure Issues of the Government Accountability Office. 
Mr. Goldstein is going to provide testimony on the GAO's 
investigation on the Judiciary's rent and the corresponding 
report released today. The ability for Congress to perform 
oversight and investigation is crucial to our mission and GAO, 
through unbiased audits and timely responses, assists us in 
this function.
    Following Mr. Goldstein's testimony, we will be open for 
questions.
    So, Mr. Goldstein, you may proceed.

TESTIMONY OF MARK GOLDSTEIN, DIRECTOR, PHYSICAL INFRASTRUCTURE 
            ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldstein. Thank you. Good morning, Mr. Chairman, 
Ranking Member Norton, and members of the Subcommittee. Thank 
you for the opportunity to testify before you today on our work 
related to Federal courthouse rents.
    Since the early 1990's, the General Services Administration 
and the Federal judiciary have undertaken a multi-billion 
dollar courthouse construction initiative to address what the 
judiciary has identified as growing needs. The judiciary pays 
over $900 million in rent annually to GSA to occupy court-
related space, and this amount represents a growing proportion 
of the judiciary's budget.
    The rent payments, which, by law, approximate commercial 
rates, are deposited into GSA's Federal Buildings Fund. With 
slightly over 20 percent of its budget allocated for rent 
payments, in December 2004 the Judiciary requested a $483 
million permanent annual exemption from rent payments to GSA.
    Denying the judiciary's requested rent exemption, GSA noted 
that the Fund was designed to encourage efficient space 
utilization by making agencies accountable for the space they 
occupy, and that it is unlikely that GSA could obtain direct 
appropriations to replace lost Fund income. In June 2005 we 
testified before this Subcommittee that Federal agencies' rent 
payments provided a relatively stable, predictable source of 
revenue for the Fund and that previous rent exemptions such as 
the one requested by the judiciary hampered GSA's ability to 
generate sufficient revenue for needed capital investment.
    You asked us today to review the judiciary's courthouse 
rent costs. My testimony will discuss, one, recent trends in 
the judiciary's rent payments and square footage occupied, and, 
two, challenges that the judiciary faces in managing its rent 
costs. My statement is based on a report that is being released 
today. In summary, we found the following:
    One, about two-thirds of the judiciary's $210 million rent 
increase from fiscal years 2000 through 2005 is attributable to 
a 19 percent increase in net square footage. The remaining 
increase is attributable to disproportionately high increases 
in security and operating costs. We found that neither the 
judiciary nor GSA had routinely and comprehensively analyzed 
the factors influencing rent increases. This information could 
help the judiciary better understand the reasons behind its 
rent increases, make more informed space allocation decisions 
in the future, and identify errors in GSA billing.
    Furthermore, the lack of a full understanding of the 
reasons for increases in the judiciary rent, in our view, 
contributed to growing hostility between the judiciary and GSA. 
Conversely, GSA's lack of full understanding of the reasons for 
the rent increases left it unable to justify them to the 
judiciary and other stakeholders such as Congress. In the 
report released with the testimony, we recommend that the 
judiciary begin tracking and analyzing rent trends in order to 
improve its understanding and ability to manage its rent costs. 
The judiciary agreed that tracking rent trends is necessary, 
but said the specific types of data we recommended would not be 
particularly useful.
    Two, the judiciary faces several challenges managing its 
rent costs, including costly architectural and structural 
requirements for modern courthouses, a lack of incentives for 
efficient space use, and a lack of space allocation criteria 
for appeals and senior district judges. In our report we 
recommended that the judiciary establish incentives to 
encourage local decision-makers to use space efficiently and 
improve space allocation criteria in a number of ways. The 
judiciary disagreed that additional space allocation criteria 
are needed for appeals courts and senior judges, and said that 
it already had started updating its space allocation criteria.
    The judiciary has initiated a rent validation effort, but 
it does not address a lack of incentives for efficient space 
use at the circuit and district levels. Because rent is paid 
centrally by AOUSC, circuit and districts have few incentives 
to efficiently manage their space.
    An example of the inefficiencies that may result is in the 
Eastern District of Virginia, where the judiciary paid $272,000 
in 2005 to rent 4,600 square feet of office space for an 
appeals judge in McLean, Virginia, in addition to paying for 
4,300 square feet of chamber space originally designated for 
that judge in the U.S. Courthouse in Alexandria. According to 
AOUSC, the judiciary has subsequently pursued alternative uses 
for that space. Although planning and building for future needs 
may limit alternative uses of space until it is occupied, some 
of this under-utilization is a result of outdated criteria.
    Finally, I must inform you, Mr. Chairman, that AOUSC has 
objected to much of GAO's report and believes that we are 
biased; that the objectives of our study are not complete; and 
that our findings, conclusions, and recommendations are 
unfounded. GAO takes seriously any notion that our reports do 
not reflect the highest values and standards of the agency. I 
can assure you that the concerns expressed by AOUSC were 
carefully examined.
    This report has been reviewed and approved at the highest 
levels of GAO and, like all our reports, it represents an 
institutional view. GAO strongly rejects any notion that its 
report was biased, flawed, or unfounded. Our procedures to 
ensure integrity, independence, and objectivity were followed; 
our evidence is supported and validated; and our findings, 
conclusions, and recommendations remain unchanged.
    Mr. Chairman, this concludes my prepared statement. I would 
be pleased to respond to any questions now or for the record 
that you or other members of the Subcommittee may have.
    Mr. Shuster. Thank you, Mr. Goldstein. We appreciate that. 
Your last statement there, being accused of your report being 
biased, additionally, the Courts have questioned the legitimacy 
of some of the interviews you conducted with court staff during 
the investigation. Can you respond to that accusation?
    Mr. Goldstein. Sure. I will talk briefly about the bias, 
sir, and then I will talk about the interviews.
    Mr. Shuster. Sure. Absolutely.
    Mr. Goldstein. Thank you.
    Regarding the bias that is alleged, sir, I would say the 
GAO actually does have a bias: tax dollars should be 
efficiently spent on behalf of Congress and the American 
people. But that is the only bias GAO has. Moreover, we take 
seriously any potential hint of bias in order to ensure our 
integrity and our independence. Everyone working on our report, 
including myself, has to sign a form that ensures, at the 
beginning of every single report we do that we can affirm that 
we have no impairments regarding our integrity and 
independence.
    With respect to the Courts' contention specifically on this 
engagement, GAO's long-held position on the impact that rent 
relief would have on the Federal Buildings Fund for any agency 
does not constitute a bias that precludes us from examining 
rent trends and challenges to effective space management.
    With regard to our interviewing process, for a number of 
interviews that the judiciary feels are mischaracterized or 
perhaps that didn't take place or were anecdotal in nature, for 
a number of these interviews I was there. I personally heard 
judiciary officials say the things that we are being accused of 
mischaracterizing.
    The people we talked with knew what they were talking 
about. They were judges, clerks, circuit executives, GSA 
officials, all with policy or space management 
responsibilities. We did more than 60 interviews in the field 
with relevant officials. They were a combination of walking 
tours through courthouses and formal conversations with 
multiple people taking notes and comparing them later for 
write-ups for our formal work papers. I review every single 
interview. This isn't a case of GAO making up things or leaning 
on thin evidence.
    Moreover, our interviews revealed multiple court officials 
in multiple locations corroborating the information, especially 
regarding challenges that the judiciary faces or our 
recommendations. It is court officials saying that they need 
better data; it is court officials saying they need incentives 
to better manage space; it is court officials saying the 
criteria for appeals courts would help them manage space 
better.
    I recognize that much of what we were told out in the 
districts may be inconvenient for the Courts. Frankly, I am 
surprised that the Courts felt they could reliably determine 
who we talked to, since, to ensure the integrity and 
independence of our work, we do not reveal the names of the 
individuals we talk to, so that people can talk to us 
truthfully about what they saw and what they think without a 
fear of reprisal.
    As your staff knows, we requested that the Administrative 
Office of the Courts not come along on the site visits, because 
officials from that office, in our first visits, attempted to 
undermine the discussions. They attempted to change the 
questions being asked, they attempted to change the answers 
people gave; they repeatedly interrupted others and got into 
arguments with GSA. It is quite possible that people changed 
their answers and were less candid when asked to confirm 
statements by their superiors or colleagues.
    Mr. Shuster. Thank you. Mr. Goldstein, in testimony 
submitted by the Judiciary for today's hearing, they state the 
following: ``Since 1985, the rent changes imposed by GSA, 
adjusted for inflation, has grown at twice the rate as the 
increase in square footage rented. Rent increased 333 percent, 
adjusted for inflation, using the same CPI Index used by GAO. 
During the same period, square footage increased 166 percent.''
    From an empirical point of view, is it possible to draw 
this conclusion from the data?
    Mr. Goldstein. We clearly use very different numbers and 
very different years than the Courts data.
    Mr. Shuster. I am sorry, can you pull the microphone a 
little closer?
    Mr. Goldstein. Sure. Certainly.
    We clearly use very different data and years than the 
Courts' data. Just the one initial fact that you mentioned, 
that you just said that we used a CPI Index is not correct. We 
use a GDP Index inflation because we feel that it is broader--
and includes a lot more in the Index, including construction 
and steel and things like that. So it is a different inflater.
    More generally I can respond and answer by saying a couple 
of things. First, AOUSC's table only expresses rent in gross 
terms, making it impossible to analyze how the different rent 
components changed. Second, based on their notes in the table, 
their rent and square footage statistics don't appear to 
include the bankruptcy court, which represents 17 percent of 
all square footage in the Federal judiciary. Third, the note in 
the table indicates that the rent statistics represent the 
Judiciary's judicial services, salaries, and expense accounts, 
so it is not quite clear to us exactly what is included and 
what is not included there.
    They also use very different years. We chose fiscal year 
2000 as the starting point because it coincides with the full 
use of GSA's new rent pricing policies. We were able to break 
out the different components of rent: shell, IT, operations, 
and security and things like that, which the Courts are unable 
to do or anyone was unable to do before 2000. In fact, when we 
discussed all these issues with our professional methodologists 
back at GAO, we were basically told they would not approve us 
being able to go back before 2000 because the data is 
relatively meaningless for use in making the kind of decisions 
and reaching the kinds of conclusions that we are talking 
about.
    Mr. Shuster. Well, why did you use the five years and why 
have they gone back further?
    Mr. Goldstein. We used only the last five years because 
going back before that period you can't make any causal 
relationships about the reasons why the rent changed. Only from 
2000 forward, with the advent of the new pricing policy that 
GSA has put in place can GSA track these numbers.
    Mr. Shuster. And can you explain--you mentioned--what do 
you use as an index?
    Mr. Goldstein. We use the Gross Domestic Product Index, as 
opposed to the Consumer Price Index. And it is broader.
    Mr. Shuster. Broader. And you said----
    Mr. Goldstein. It includes a lot more things in it, such as 
the price of steel and construction materials and lighting and 
the like. So it is a broader, more robust index.
    Mr. Shuster. That is not included in the CPI?
    Mr. Goldstein. That is correct.
    Mr. Shuster. Steel?
    Mr. Goldstein. Yes, sir.
    Mr. Shuster. OK.
    With that, I would like to recognize Ms. Norton, if you 
have questions.
    Ms. Norton. Mr. Chairman, I just want to say for the 
record--and as a member of the bar--how dismayed I am that 
judges would ask for the names of everyone who spoke to the 
GAO. It smacks of intimidation. There is a reason why, for as 
long as there has been a GAO, GAO has never revealed, and will 
never reveal, the names of people who speak to them. They are 
often investigating agencies at the top level. The whole point 
is to speak.
    Frankly, the GAO is an investigative agency, it doesn't 
take anybody's word. It does hear from witnesses the way courts 
hear from witnesses, except they investigate for Congress. And 
the confidentiality of witnesses to speak truthfully to the GAO 
is required by the Congress of the United States. So I am 
dismayed that judges would ask for the names of people who 
spoke.
    Let me go on to the questions.
    Mr. Goldstein, nobody wants a GAO report done about them. 
Nobody knows this better than I do. I headed a Federal agency, 
and we all quaked that Congress would come in and ask for a GAO 
report. GAO reports are objective reviews not aimed at 
criticizing the agency, but they are aimed at looking for 
problems. They are never complimentary and, over time, agencies 
learn to be grown up about what your mission is.
    I am shocked at the way in which the courts have responded 
to the GAO, because courts are in the business of investigating 
matters. So the whole notion that their rent payments, the way 
in which they conduct their business, should not be the subject 
of an investigation the very same way that anybody else can be 
is very, very troubling to this member of the bar.
    The way in which the Courts have, of course, criticized 
your report is not unusual, except it is rather scathing. It is 
not unusual. Were the Courts given an opportunity, a fair 
opportunity to comment and to rebut your findings?
    Mr. Goldstein. Yes, ma'am, they were. They received a 
number of opportunities. We met with AOUSC throughout the 
period of our review. We, of course, hold an entrance meeting 
where we discuss what it is we are going to do based on our 
work here with the Committee and our discussions with your 
staff. We met with AOUSC numerous times; we discussed what we 
would be doing in the field with them; we kept them apprized, 
obviously, as we went. We worked--and made many of our 
arrangements to the field through them, so they knew what we 
were doing, of course.
    They had plenty of opportunity, in fact, more than usual 
opportunity, I would say, to review our work. They reviewed a 
very early sort of discussion paper version; they reviewed the 
draft; they met with us several times; they presented 
voluminous comments to us, which we evaluated; and if you have 
the fortitude, our evolution is there in the back of our 
report.
    At least half the report is represented by their comments 
and our rebuttals. Very rarely does GAO need to go to this 
length, quite frankly, but we had to respond with 70 points to 
respond to their comments to us in order to, in our opinion, 
fully set the record straight.
    Ms. Norton. Does this include your conclusions as well, 
your full report and conclusions?
    Mr. Goldstein. It is in the back of that report.
    Ms. Norton. When they offered detailed rebuttals, did you 
then review your own findings critically, and did you make any 
corrections or changes based on their rebuttal?
    Mr. Goldstein. We did both things. Not only did the team 
that worked on this report review it; any job that--any report 
that GAO does, an independent team always comes in after the 
team that writes the report and reviews that report, and 
literally checks every single word to make sure that it is 
accurate.
    Ms. Norton. So that is a team that is independent of the 
team that wrote the report and----
    Mr. Goldstein. Right. A team that had absolutely nothing to 
do with the initial effort; might not even know where a Federal 
courthouse is.
    On top of it, in this particular instance, because the 
Judiciary had concerns that were so significant, my management 
brought in a third team, which is pretty unusual at a high 
level----
    Ms. Norton. Would you describe that? They brought in, in 
addition to the team----
    Mr. Goldstein. An additional----
    Ms. Norton.--the independent team that would look at GAO 
findings of the HHS or the Labor Department, they brought in 
another team?
    Mr. Goldstein. Yes, ma'am. A team from our quality 
assurance team.
    Ms. Norton. You brought in another team, I am sorry.
    Mr. Goldstein. A third team examined this report to ensure 
that we had followed all our procedures, that the report itself 
was accurate, that we conveyed all the information correctly, 
that the findings and conclusions and recommendations met our 
standards. It was obviously also reviewed at the highest levels 
of the agency. The head of our methodology department reviewed 
all of the data and all the methodology that we used to make 
the conclusions that we made. It has been thoroughly vetted.
    On top of that, as you suggested, the Courts did have 
multiple opportunities to look at the material, and we have 
made numerous changes. We have made three kinds of changes: 
one, we have made some minor changes for things that--you know, 
technical corrections, things that we mislabeled. We mislabeled 
a couple photographs and some buildings, things like that that 
always crop up, and the assurance process is designed to get at 
those kinds of mistakes.
    We made changes to the report to add some context as a 
courtesy to the Courts, because they felt that because we 
weren't handling certain kinds of objectives, that additional 
context might be necessary. And then we made some changes on 
behalf of the judiciary to update some information that had 
changed over time. But none of that changed our findings, our 
conclusions, and our recommendations.
    Ms. Norton. One of the challenges to your work was how you 
chose the courts that were highlighted in the report. How did 
you choose the courts when you conduct your site visits? Were 
there courthouses that were fully occupied and busy? How did 
you decide which courts to visit?
    Mr. Goldstein. GAO always tries to do site visits; it is 
one of the things that we do. We get out in the field. It is 
one of the things we add value to for Congress, finding out 
what is going on out in the field, so that we can understand 
issues, not just here in Washington. And we felt that for this 
particular report it would be useful, since the question being 
asked was essentially why did the rent increase and what are 
the trends in the rent increases, to go out and look at those 
districts where the rent had actually increased. And that is 
the principal driver behind the decisions that we made.
    We also looked at other districts where new courthouses 
were being constructed, and a couple where courthouses were not 
being constructed as well.
    Mr. Shuster. Ms. Norton, let me move on and let these other 
folks get a question in here, then we will come back. Since you 
have a number of questions, I will give you another crack at 
it.
    Mr. Kuhl.
    Mr. Kuhl. Thank you, Mr. Chairman.
    Mr. Goldstein, just a couple questions. Number one, from my 
our overview and look, you were aware of the request of 
Judiciary to have a permanent rent exemption?
    Mr. Goldstein. Yes, sir.
    Mr. Kuhl. What would happen to the Federal Building Fund if 
in fact that exemption were granted?
    Mr. Goldstein. Well, we testified last June and have long 
held the position that rent exemptions of any kind to the 
Federal Building Fund really have a very negative impact on the 
ability of the Fund to generate capital for investment in other 
government buildings. As you know, GAO already has real 
property as a high risk item which we have carried for a number 
of years, since 2003.
    We think that there are a lot of issues and problems with 
respect to real property in the Federal Government, and any 
diminution of the funds going into it that a rent exemption 
like this would cause would further exacerbate the fund and 
create problems in terms of being able to renovate Federal 
property, to be able to effectively deal with its problems.
    Mr. Kuhl. What percentage of the Fund is the Judiciary's 
contribution?
    Mr. Goldstein. My understanding is----
    Mr. Kuhl. As far as overall income?
    Mr. Goldstein. My understanding is that it is about 15 
percent, but that it gets out about 40 percent.
    Mr. Kuhl. OK. So there would----
    Mr. Goldstein. In fact, the Chairman made that particular 
point last year at the hearing.
    Mr. Kuhl. OK. Question for you. You obviously, in the 
report, mentioned going and visiting several of these sites. Is 
there a standard percentage square foot basis per person that 
is acceptable, say, in any courtroom?
    Mr. Goldstein. There is a Design Guide that sets out how 
much space various components in the building are allowed, such 
as judges' chambers and courtrooms, and they vary even between 
the kinds of courtrooms, whether it is a magistrate or a 
bankruptcy courtroom or the like. So there are very set numbers 
for all of those kinds of things, right down to square feet, 
and also discusses the kinds of finishes that are allowed in 
all these various facilities.
    Mr. Kuhl. In any of your visits did you find any facilities 
that were over-utilized?
    Mr. Goldstein. We did find some courthouses that were at 
capacity. We also found a number of courthouses that were not 
at capacity; some significantly under capacity. However, the 
courts----
    Mr. Kuhl. Could you share some of those examples with the 
Committee, what facilities you found, say, underutilized?
    Mr. Goldstein. Sure. Some of the courthouses that had extra 
courtrooms that we saw--and I can supply this more fully for 
the record--were--well, let me put it this way. Of the 14 
courthouses we visited, we found 10 that had unassigned 
courtrooms and chambers, and not just the newer courthouses. 
For example, the courthouse in Baltimore, which was built in 
the 1970's, had four magistrate courtrooms that were being used 
for storage, the large special proceedings courtroom was 
unassigned, and two appeals courtrooms that had not been used 
for that purpose for years.
    At the Union Station Courthouse in Tacoma, Washington, we 
found a number of unassigned courtrooms and chamber suits. One 
of the courtrooms there was being used by the U.S. Trustees, 
which is not a part of the Federal Judiciary, and, until 
recently, two of those chambers were being used by local 
members of Congress, but at the time of our visit those 
chambers were completely empty.
    In the Walsh Courthouse in Tucson, Arizona, we found that 
there were only two bankruptcy judges currently assigned to the 
entire courthouse, which had previously housed the entire 
district court.
    In Seattle, the judiciary had enough courtrooms and 
chambers for one bankruptcy judge to have courtrooms and 
chambers in both the Seattle courthouse and the Tacoma 
courthouse 30 miles away. He had a combined 8,000 square feet.
    Those are some others. We have many such examples, sir.
    Mr. Kuhl. Thank you.
    Mr. Chairman, I yield back.
    Mr. Shuster. Just a quick follow-up on Mr. Kuhl's question. 
Do the courts have a standard they use for space for people? I 
know there is an OSHA standard, and I don't know what that is. 
In the Congress, we are exempt from that, so we don't give 
people enough people to work, we use smaller spaces. So I just 
wondered is there a standard that the Courts use for space in 
the Design Guide, and how does that compare to commercial 
businesses, private industry?
    Mr. Goldstein. I will have to get back to you for the 
record, or you may ask GSA. I don't have the specifics of it.
    I do know that GSA and the Courts have worked together to 
try to ensure that space is reasonable and functional, and to 
try to contain costs, but there are also a number of other 
things that the Design Guide does not cover, as we indicate in 
our testimony, such as space allocation for appeals court 
judges or senior judges, that we feel would help the districts, 
particularly. A number of the folks that we talked to out in 
the districts said that having some kind of space allocation 
set for these judges and these courtrooms would help them 
manage space better.
    Mr. Shuster. OK. Thank you.
    Mr. Davis, the gentleman from Tennessee.
    Mr. Davis. When I first was led to the Congress, I sought 
perhaps maybe opening an office in one of the counties that had 
a Federal building, and we checked with the Federal building to 
check on the cost involved, and it was really too expensive for 
us to be able to rent office space from GSA in the Federal 
courthouse.
    I know when you look at the budget there are several things 
that you have to provide. You provide utilities, you provide 
maintenance, and obviously the construction costs, capital 
outlay, which we make appropriations for. But what I became 
concerned about--not concerned, what I wondered about was 
whether or not--and I know you have overhead, you have to pay 
for employees. You have got to keep GSA in operations, 
obviously.
    But we appropriate a lot of money here directed to General 
Services Administration, and I am concerned are you looking at 
the rental properties, and that is basically what it is, even 
though it is owned by the Federal Government. Are we looking at 
rental properties as a way to make a profit from other 
agencies, since we are all one big--I mean, we are all part of 
the Government, but are you using your ability to charge rents 
that would create a profit, bottom line, for GSA's operating 
expense?
    Mr. Goldstein. We have never specifically looked at that 
question, sir, and you might ask that of GSA. But the Federal 
Buildings Fund was designed in the 1970's to try and get 
government agencies under GSA to account for their space needs 
and to pay for them, rather than just not having to sort of 
feel the pain, if you will, of getting any space that they want 
in order to assure some accountability.
    Mr. Davis. I yield back.
    Mr. Shuster. Thank you.
    Ms. Norton, do you want another?
    Ms. Norton. I just have one more question, Mr. Chairman.
    Based on your analysis, are the Courts a ``profit center'' 
for GSA, as stated in the Courts' year-end report?
    Mr. Goldstein. We did not specifically look at that 
question, so I cannot answer it directly. But we did not find, 
in any of the things that we examined, that there is any notion 
of that.
    Ms. Norton. Mr. Chairman, here is new construction in 
courthouses. This begins in 1991. And the reason I point this 
out, Mr. Chairman, is because I have been on this Committee 
since 1991, and I say, without fear of contradiction, that all 
we authorized for construction are courthouses. Yes 
occasionally there is a Federal building of some kind. We 
authorized the transportation building after 30 years, when it 
was struggling to get a new building.
    But in effect, the one kind of construction that Congress 
has been willing consistently to do are courthouses, rather 
than the construction that agencies beg for throughout the 
Country. You had the figures, I think, about the number of 
courthouses. Having sat through construction of nothing but 
courthouses, it is hard for me to believe that anybody is 
paying for courthouses except other Federal agencies, who pay 
into the--whose rents go into the Building Fund and are then 
used to construct what? Courthouses.
    Mr. Goldstein. As you mentioned yourself last year, roughly 
15 percent of the funds of the Courts, but they get about 40 
percent back. The other point that is well worth mentioning is 
that between 1990 and 2006 there were only four years in which 
Congress did not provide additional funds to the Federal 
Buildings Fund, so that it is not simply a matter of the 
judiciary's own appropriations.
    Mr. Shuster. Thank you. Again, can you talk just a little 
bit, before we close, in the interviews, what went on in the 
interviews? When you had an interview, who was in there? You 
were speaking to people individually?
    Mr. Goldstein. We did a number of kind of interviews. We 
did walk-throughs, we did tours of every courthouse we went to.
    Mr. Shuster. And you went to 14 courthouses, right?
    Mr. Goldstein. Of the 14--right, in all the districts we 
went to. I think it was six or seven districts. And we 
typically would have a tour of the courthouses that we were 
going to look at with GSA, because they had the keys, and court 
officials. And those court officials ranged, depending on the 
courts we were in, from district clerks and circuit executives 
and judges of all kinds. We talked to magistrate judges, 
bankruptcy judges, district judges, a whole variety of folks. 
We talked to folks at the circuit levels as well.
    So we did the tours and got a lot of information that way. 
Then we also had more formal interviews afterwards. We went 
back to conference rooms and sat down and asked a lot of 
questions. We typically were there for a couple days.
    Mr. Shuster. One-on-one or were they groups when you had 
the formal interviews?
    Mr. Goldstein. It varied. Sometimes it was one person, 
sometimes it would be two or more. GAO does all of its 
interviews with at least two GAO staff, and those GAO staff 
always take notes. Our conversations were not casual, they were 
formal in nature. After our interviews were done, the GAO staff 
taking the notes compare them, a third GAO staff person looks 
at them as well. Once they are written up, based on the notes--
we have a number of processes and procedures that we go through 
to assure the integrity of the interviews we take.
    Mr. Shuster. And did you say that there were officials from 
the Judiciary that were in there that were trying to change 
answers, did I hear you say?
    Mr. Goldstein. When we first began this job for you, we 
went to a couple courthouses that were in this part of the 
country, and unbeknownst to us--because we had not invited 
them, but apparently the courts maybe did--some officials from 
the Administrative Office attended, and we found their 
attendance to be very disruptive, so we asked for all future 
visits that we went on that those officials not join us so we 
could be able to do our interviews and conduct our inquiry 
unimpeded and independently.
    Mr. Shuster. OK, thank you. And how long have you been 
working for GAO and doing these kinds of studies
    Mr. Goldstein. I have been at GAO for about six years, sir.
    Mr. Shuster. Six years.
    Mr. Goldstein. But I have been doing public service for 
more than 20.
    Mr. Shuster. And, in your opinion, you feel this study was 
as fair and unbiased and straightforward as could possibly be?
    Mr. Goldstein. Yes, sir. It followed all of our procedures 
and policies, and was reviewed, as I mentioned earlier, not 
only through our normal processes but, because of the concerns 
the judiciary had, it received even greater scrutiny.
    Mr. Shuster. And not just one group reviewed yours, but you 
had a second or a third group came in too?
    Mr. Goldstein. That is correct. There were two independent 
teams, not just one, in this instance.
    Mr. Shuster. OK. Well, thank you, Mr. Goldstein. I 
appreciate your being here today, and I am sure we will be 
speaking to you in the future.
    Mr. Goldstein. Thank you, Mr. Chairman.
    Thank you, Ms. Norton.
    Mr. Shuster. With that, we will invite the second panel to 
come to the table.
    We are going to have votes in about 20 minutes, so I am 
sure we can get through the second panel's testimony, and we 
will go from there.
    So Mr. Winstead and Judge Roth, please.
    We are joined today by the Honorable Jane Roth, who sits on 
the United States Court of Appeals for the Third Circuit and 
also serves as the Chair of the Judiciary Conference's 
Committee on Security and Facilities; and also Mr. David 
Winstead, who is the Commissioner of General Services 
Administration Public Building Service.
    I am certain that our second panel will provide us with 
insight, and maybe differing opinions, on the GAO report.
    So, with that, Judge Roth, would you go ahead and proceed?

 TESTIMONY OF THE HONORABLE JANE R. ROTH, JUDGE, THIRD CIRCUIT 
COURT OF APPEALS, CHAIR, COMMITTEE ON SPACE AND FACILITIES; THE 
  HONORABLE DAVID L. WINSTEAD, COMMISSIONER, PUBLIC BUILDING 
SERVICE, GENERAL SERVICES ADMINISTRATION; ACCOMPANIED BY ROBERT 
 ANDRUKONIS, DIRECTOR, CENTER FOR COURTHOUSE PROGRAMS, GENERAL 
                    SERVICES ADMINISTRATION

    Judge Roth. Thank you, Mr. Chairman, members of the 
Subcommittee. I appreciate the opportunity to testify today on 
the GAO study of the Judiciary's growing rental obligation.
    The Judiciary is grateful to the Transportation and 
Infrastructure Committee for supporting and furthering the 
administration of justice through the authorization of new 
courthouse construction and renovation projects necessitated in 
recent years by workload, growth, and security requirements.
    I would like to note at the outset that we did not know 
until late in the study that GAO had dropped its original 
number one objective: to review how GSA calculates the rent 
bills. GAO has not addressed the fundamental question of 
whether GSA's commercially equivalent pricing practices 
developed for office buildings are appropriate for special 
purpose buildings such as courthouses.
    There was no assessment of how existing practices impact 
rent costs over the long term. Addressing both of these 
questions we believe would have provided necessary information 
to the Committee with regard to our request for rent relief.
    It is important to understand that we need the additional 
space we have requested. The Judiciary's workload and 
consequent need for additional judges and staff are growing due 
to many factors, including the increased Federalization of 
crimes, a proliferation of multi-defendant trials, and growth 
in immigration-related and drug trafficking proceedings.
    Security requirements also increased substantially 
following Oklahoma City and 9/11, and due to the violent nature 
of many of the criminal offenses we try. A modernization and 
expansion program was therefore critical to provide adequate 
facilities for the Federal courts to serve their vital public 
purpose.
    The Judiciary understands that courthouse construction and 
renovation will cause rents to increase, as highlighted in 
GAO's study. However, since 1985, GSA's rent charges have grown 
at twice the rate as the increase in square footage. Using the 
GPI Index to adjust for inflation, rent increased 333 percent, 
while square footage increased only 166 percent. GAO's draft 
report highlighted a six year period, with 27 percent rent 
growth, 19 percent of which was shell rent, and contrasted that 
to 19 percent growth in new space.
    This short time frame was too limited and does not present 
an accurate picture for the Committee. The 20 year analysis 
during which rent grew at double the rate of new space is a 
more meaningful statistic and reflects our concern that rent 
has taken up an increasingly larger proportion of our budget 
over the years. The longer look also clarifies the fact that 
from year to year the greatest part of our rent bill is for 
courthouses already in our inventory.
    The Judiciary's primary rent concern is that GSA does not 
price courthouses appropriately. GSA prices the Judiciary's 
rent as if the Judiciary were a small tenant on a five-year 
lease in a speculatively built office building. This makes no 
sense given the true circumstances of our occupancy. The 
Judiciary is the long-term tenant for whom a building is 
constructed. Typically a build-to-suit commercial tenant enters 
into a long-term lease and enjoys a low long-term level rent 
reflective of the cost to finance the building over 25 or more 
years.
    Of equal concern to us is whether GSA is in fact 
calculating our rent accurately. We had hoped the GAO might 
corroborate and gage the extent of inaccuracies we have 
recently discovered in rent billings. Although the Judiciary is 
only at the beginning of a rent validation effort, in 15 
buildings alone we have identified annual overcharges amounting 
to approximately $38 million. We brought these to the attention 
of GAO, but they were not addressed in the report.
    Another objective of the GAO study was to identify what 
challenges, if any, the Judiciary faces in managing costs 
associated with its space needs. In answering this question, 
GAO did not analyze the factors that dictate judicial space 
need and did not ask a single Judiciary official with policy-
making responsibility what they believe the challenges to be. 
The GAO conclusions, therefore, fail to address some of the 
more significant planning challenges we face, such as planning 
for expected growth, the intractability of a space decision 
once it is made, and an inventory containing obsolete 
facilities that do not meet modern technological and security 
needs.
    Notwithstanding the concerns I have mentioned, we find the 
GAO's recommendations are consistent with efforts we already 
have underway to control rent costs. The tracking process 
recommended by GAO is dependent on GSA providing data in a way 
that will lead to meaningful analysis. We are continuing to 
work with GSA to complete the measurement and categorization of 
space assignments by court component so that they can fully 
analyze and track trends as suggested.
    We also have a number of space management efforts underway 
which may be of interest to the Committee. We are imposing 
tighter budget control and rent caps on space decisions made by 
circuit judicial counsels; we are making changes to the U.S. 
Courts Design Guide that will reduce construction costs by 
about 8 percent; we are retooling our long-range facilities 
planning process to introduce life-cycle cost benefit analysis 
into the evaluation of housing alternatives; we will continue 
our rent validation initiative with GSA; and the Judiciary is 
conducting a comprehensive study of courtroom utilization.
    We will continue to improve our facilities planning and 
management processes to control costs, but these efforts cannot 
reduce in a substantial way the Judiciary's total rent payments 
for hundreds of existing courthouse facilities across the 
Country. Only a reduction in rent charges can have any 
significant impact on the Judiciary's rent bill.
    Mr. Chairman, I thank you for this opportunity to testify. 
We deeply appreciate the Committee's recognition of the 
Judiciary's need for adequate and secure facilities in which to 
conduct the work of the courts, and I would be very happy to 
answer any questions the Committee may have.
    Mr. Shuster. Thank you very much, Judge.
    Commissioner Winstead.
    Mr. Winstead. Chairman Shuster, Ranking Minority Member 
Congressman Norton, and Congressman Kuhl, I am very pleased to 
be here. I am David Winstead, Commissioner of the Public 
Building Service at GSA, and I am here to share with you both 
the response to the GAO report, as well as to share with you a 
little bit about the partnership that we have with the Courts, 
which is very, very important to us in terms of some of the 
objectives you outlined both in your opening comments, in terms 
of saving costs, containing costs in the design of new 
courthouses, and also managing and trying to work with the 
Courts in terms of their rent.
    As you know, since 1995, GSA--and my full report is for the 
record, please, full testimony.
    Since 1995, GSA has embarked on the largest courthouse 
development program in 50 years. In an effort to uphold a lot 
of the Federal principles of architecture as espoused by 
Senator Moynihan and others, we have attempted to return the 
public buildings to the real prominence that they once had and 
creating a portfolio of integral public structures that both 
represent the public and the importance of the judicial 
process.
    Many circumstances, however, have altered the way these 
buildings have been shaped since 1995. The program has 
attempted to strategically meet both financial accountability 
to both the present OMB, Congress, and the taxpayer, who is 
ultimately supporting our housing needs, both the Judiciary and 
the other Federal agencies.
    We have done this with difficulty in terms of the 
construction escalations we have received and have been living 
with over the last five years, and these have really impacted 
all of our construction and development in recent years. The 
difficulty of estimating and forecasting funding requests to 
meet that cyclical change has been a challenge, but this 
Committee has been responsive in terms of its work in March in 
approving the 2007 Public Buildings Program.
    But the evolution of modern courthouse design has also 
required us to be more efficient than ever before, and the last 
three concepts that have been approved by GSA and the Courts--
both Nashville, Salt Lake City, and Austin--I think show an 
attention to the issues and concerns you have expressed in 
terms of more efficient courthouses and greater control of 
efficiency in terms of utilization and operation. We believe 
that these strategic decisions which are being implemented 
close to the objectives that you have outlined before.
    In terms of the GAO report, the three findings in the 
report really address the explanation and address the 
Judiciary's rent issues, both finding increased space needs as 
a major cost, stricter security needs, and rising energy costs. 
We agree that the primary factor underlying the Judiciary's 
rent increases has and will continue to be the increase in 
space needs, and that has been both the GAO testimony and 
reflected in your opening statement, the facts on that.
    We have, from 2000 to 2005, on the space seen about 19 
percent increase, and I think the Judicial Conference has long 
recognized that the need to return certain facilities that are 
not fully used for full-time resident judges, however, will 
only release about 15 courthouses, and we believe that this is 
one area in terms of space utilization, in terms of saving 
additional space.
    The GSA also believes another opportunity to reduce cost is 
to enhance space utilization by taking a serious look at 
courtroom sharing. As an attorney, obviously, I am very 
cognizant of the availability of courtroom for the judge in 
terms of moving parties to settlement, but we also think, over 
the last decade, recommendations have been made in terms of 
space sharing, wherever possible, should be made, and, frankly, 
to this date, very little progress has been made.
    Security. The second finding in the GAO report is the 
rising cost of security, and it has become a disproportionate 
part of the cost of rent, some 130 percent increase from 2000 
to 2005. These security costs are in fact rising for all of our 
customers, and we are actively involved in reducing these costs 
wherever possible.
    But security enhancements such as progressive collapse have 
increased building costs by up to 8 percent in terms of the 
courtroom cases. We are finding a great deal of success when we 
integrate security requirements early in the design process in 
the form of serving for security setbacks, and we also are 
working to blend hurricane and security measures wherever 
possible.
    The third factor that the GAO report addressed is, again, 
energy costs, which, unfortunately, have been a 
disproportionate rise of the overall rent and our cost factors, 
some 45 percent increase from 2000 to 2005. GSA has been 
aggressively working to explore use of new technology in both 
our purchase as well as use of fossil fuels. We have achieved 
about a 30 percent average reduction in energy consumption in 
recent years, over the past decade, and will continue to focus 
on efficient HVAC, lighting systems, and instituting more 
efficient operating procedures to save cost on the utility 
side.
    The GAO recommendations, they made two in this report. The 
first is that GSA and the AOC should work together to both 
track rent and square foot data in a way that enables the 
Courts to attract the effect of their space management 
decisions. The second recommendation is for the AOC to work 
with the Judicial Conference to create incentives for district 
and circuit judges and circuit executives to better manage 
space and pace consumption more efficiently.
    With respect to the first recommendation, we believe that 
we have programs and systems in place to assist the AOC in 
tracking rent and square footage trends on an annual basis, as 
well as assist in revising the Cost Design Guide. In a recent 
meeting with Judge Roth and her committee, we worked to refine 
that, and where we do feel that the cost savings could be 8 
percent, in one specific project we have identified 2 percent 
savings in a planning sense for a new courthouse.
    GSA has informed their customer, and we do inform the 
customer of rent implications as early as possible on two 
levels: both the project level, with rent implication 
documented in our occupancy agreement, and at the aggregate 
level, where GSA provides a detailed projection of rent costs 
two years in advance, known as the rent estimate, which is also 
submitted to the OMB.
    In the second recommendation the GAO has met, and that is 
working with the Judicial Conference to create incentives for 
judicial districts and circuit executives to better manage 
space more efficiently, we think that this is essential. Today, 
at the project level, judges and local court personnel may make 
decisions about project scope without full regard to long-term 
impact on rent. We will support and continue to focus on this 
and work with the AOC to connect local space decisions with the 
accountability for who is paying for these decisions.
    I would now like to share with you what other more 
immediate steps we have taken in the past year to work with the 
Judiciary. We have made progress in three areas: partnering, 
billing accuracy, and lease renegotiation. GSA has partnered 
with the Judiciary on three levels.
    At the executive level we have new leadership, both at GSA 
with Administrator Doan and myself, who came on board at the 
end of 2005, as well as the Judicial Conference. I think Jim 
Duff and obviously the new Chief Justice are in place. And I 
have talked to Judge Roth, and we are really energized to try 
to continue this partnership to control these costs, and I 
think you will see that moving out even more. In fact, Monday 
and Tuesday we are meeting again.
    We reestablished partnering sessions. We got together on 
April the 11th to review all the projects in the planning stage 
at GSA for the new courts, and next week we get together on 
Monday and Tuesday with the Courts to work together on both 
space analysis and planning methodology. At the project level, 
every new courthouse has a formal partnering meeting that 
includes the GSA project team, the Court project team, design 
architectures, and also, eventually, the general contractor.
    The other concern raised by GAO and also by Judge Roth is 
the rent bill accuracy. Another area of progress in this regard 
is due to the volume. We do admit that some human factors were 
involved in the complexity of our system. There have been some 
errors. If you calculate the percent of those errors and the 
reimbursements we paid to the Judiciary, it is about one and a 
half percent of their total rent bill.
    Last year we reviewed about 2,500 bills and assignments for 
rent accuracy, and the Judiciary has recently asked us to 
review 40 appraisals used by the GSA to calculate rent and 
owned space for accuracy. We are formally involved in that and 
will continue to focus on these appraisal issues.
    Also in the renegotiation level, which is a third area that 
we have addressed, in renegotiating leases, GSA has worked with 
the AOC to develop a methodology for determining which leases 
should be considered for renegotiation. We have identified 14 
thus far, and we are doing that with other clients as well and 
achieving some success in savings. So we do hope that this will 
continue to yield areas of cost savings for the Judiciary.
    Mr. Chairman, Committee, I would like to conclude by just 
mentioning, in summary, the actions--because all of you all, in 
your opening statements, addressed the directions of this 
Committee last year and focusing in on this partnership with 
the Courts and trying to save costs and trying to help them 
control and monitor and manage their rent bill.
    Since May of last year and the hearing which was here in 
June, we actually have proposed four different initiatives: 
closing unused court facilities, which could save somewhere in 
the neighborhood of $13 million; extending the amortization 
period of tenant improvements, we can save about $14 million; 
reducing the tenant improvement costs, which is substantial, as 
highlighted by GAO, which would save about $2 million; and also 
renegotiating leases, as I mentioned before.
    To date, unfortunately, we have not been able to succeed 
pushing forward on the first three. However, the Judiciary is 
working with us on renegotiating leases, and we have refined 
just very recently, and are implementing, Design Guide changes, 
which should save costs as well.
    In conclusion, I think there were several issues that 
Delegate Norton raised. We are also, since last year, we have 
had a third-party billing contractor that is reviewing our 
awards. We have been very involved with obviously the Courts 
and the rent guide, and we continue to push for renegotiation 
of leases.
    The last thing I would like to conclude on, on April the 
11th we got together with our chief architect and his design 
people and the head of the Courts program, and as a result of a 
partnership that Judge Roth and six Federal judges had, we 
committed in three areas to work, both asset management 
planning with a working group to coordinate new planning and 
mission-related requirements and security establishing a 
working group to look at the GSA design security tool and to 
try to reduce those costs, and also in terms of a selection 
process.
    And this is very, very important--we are going to enhance 
the GSA process of site selection in two ways: prior to 
designating a panel member, we will agree to have a pre-meeting 
with the Courts in administrative offices at building sites, 
and we will also make sure that we are clarifying the role of 
both the Design Excellence process and our GSA involvement in 
that. So those are three new initiatives just taken since the 
April meeting partnering with the Courts.
    Mr. Chairman, I want to thank you all for your leadership 
in this issue, and I would be happy to answer any questions.
    Mr. Shuster. Thank you very much. We are managing our time 
clock up here. Hold on one second.
    OK, here is what we are going to do. I have to go vote, and 
I am going to recognize Ms. Norton to ask her questions, and 
when she is finished, then we are going to go into recess. And 
I will be back here at about 12:45 I will be back, and I will 
end up answering my questions, and whoever else is here. So, 
with that, I ask unanimous consent that Ms. Norton is able to 
proceed with her questioning, and we will stand in recess when 
she concludes. So, with that, I recognize Ms. Norton for her 
questions.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Judge Roth, one of the things we need to do is to find a 
way to get around the repetitive and circular back and forth. I 
am very unused to it. You know, when I deal with my friends on 
the other side of the aisle, if we want something to be done, 
we ultimately get down to what each of us can do to get it 
done, and everybody wants a win-win, so somebody gives up a 
little on each side, and that is the only way we are able to do 
legislation.
    You can see that the Committee feels strongly that the 
Court has to do its part and that the present circumstance of 
continuing to study or arguing for the same configuration just 
doesn't work, and what it is doing to me is inspiring me to 
just go into legislative mode. I am trying one more time, but I 
do want everyone to know what the mood is here on the Hill. We 
are fraught with issues of how to simply get through the 
appropriation process because the cuts are so huge.
    Mr. Winstead, when I went to the so-called THUD, the 
appropriation for your committee, there wasn't a lot of 
controversy there. The Democrats and the Republicans didn't 
have a lot of controversy because the allocation for that 
subcommittee, which GSA shares with five or six other agencies, 
had been cut something like $600 million. So everyone could see 
that there just wasn't the money for one side to say why don't 
you fund my X, Y, or Z.
    Ultimately, there was an amendment on the floor just to get 
enough for Amtrak to keep going. Amtrak runs through 43 States. 
That is one of the few amendments everybody knows you could 
pass on the floor for more money. One does have to understand 
that that is where the Congress is.
    So despite the fact that I am very concerned, because I 
have been through this so many times, I enjoy being in the 
Congress because I enjoy solving problems. I don't enjoy 
gotcha, I enjoy OK, how--you know, it is like a crossword 
puzzle for me. And nothing can be more interesting than the 
whole notion of, well, you know, courtroom sharing, well, maybe 
I don't want to do as much sharing as you want to do, but I can 
see that maybe there is something I can do.
    Without that kind of problem-solving mode, it is not that 
we are going to continue like this, it is that there is going 
to be legislation. And I can tell you that there is nobody in 
the Congress, nobody, who would find this anything but an easy 
bill to pass, a bill mandating the kind of savings, doing the 
kinds of things this Committee has asked to be done now for 
more than 10 years. We would love that, because then we can go 
home on both sides of the aisle and show to the American people 
we are saving on building courthouses.
    As much as people want there to be courthouses, let me be 
clear, it is nobody's priority up here except this 
Subcommittee. Nobody's. Nobody cares but us. And we care 
because we build courthouses, and want to build courthouses. We 
build courthouses in one way. Congress does not appropriate 
money for courthouses. We build--Congress does authorize 
courthouses. Courthouses to be paid for out of the Federal 
Building Fund. Most of the agencies in that Fund are in rented 
buildings, they never get a new building.
    So they pay rent year after year in order to build somebody 
else a building. Guess who that turns out to be? The Courts. 
So, if anything, this has been upside down. The Courts have had 
construction of buildings where it is very hard to find a 
Federal agency that isn't in a building that it hasn't been in 
for decades. And the Courts' courthouses have been constructed 
out of the rent paid by Federal agencies, not because we 
appropriate money. We do so very, very rarely. And this is the 
last thing Congress would do today.
    Having said that, I want to find a way to get through these 
issues that keep coming up. Let's take sharing. This notion 
that has been put forward by the Courts, that this one 
courtroom is essential for the administration of judges and so 
forth. I am pleased to see that the Courts have been more 
analytical than that themselves. We look back at the Design 
Guide, the first one published in 1979, and, Judge Roth, I want 
you, I want Mr. Winstead to see what the Design Guide said.
    This is Judicial Conference. Knows all about the 
Constitution and the administration of justice. And here I am 
quoting: ``In accordance with the October 1971 Judicial 
Conference Resolution, no judge of a multiple judge court will 
have the exclusive use of any particular courtroom. It is 
contemplated that a multiple judge courthouse will contain 
various size courtrooms. Each courtroom will be available on a 
case assignment basis to any judge.''
    Has the Judicial Conference amended this principle, Judge 
Roth?
    Judge Roth. We are undertaking at this time, as you 
probably know, a courtroom utilization study. We have moved up 
the completion date of that study, and I think it would be 
inappropriate for me to indicate at this point what the future 
position of the Judicial Conference will be, since that will 
depend upon the results of that study.
    Ms. Norton. Of course, I was asking you about the 
underlying principle. And the Conference itself, the Judicial 
Conference apparently has not changed the principle. I 
appreciate that there is yet another study going on. You see, 
you keep studying something to death and you get legislation.
    There was some testimony, we were pleased to hear, that 
sharing did occur in certain courts, such as Sioux City, 
Nashville, some courts in Illinois were named. Did the Judicial 
Conference receive complaints about trial delays in these 
courts where some sharing in fact was going on?
    Judge Roth. I do not know.
    Ms. Norton. That is something you might want to look at, 
because if we had that kind of information, it could help us 
know. I would be the first with you to say justice delayed is 
justice denied. Our court system is inherently slowed; that is 
the way the framers wanted it. But we certainly don't want to 
slow things up any more than they ordinarily would be.
    Judge Roth, the AOC submitted to the Committee a list of 
changes made to the Design Guide. These changes apparently were 
intended to save money. We looked at the section describing 
exceptions, and one exception seemed very peculiar for judges 
to be concerned with. It had to do with the plumbing standard 
for an office. Why should the plumbing standards be changed?
    The first thing that occurred to the Committee was--indeed, 
staff was told that closets have been designed in such a way as 
to include plumbing so that they can, and, indeed, some have 
already been, converted to private showers. Are private showers 
being built for judges in any courthouses?
    Judge Roth. No, not that I know of.
    Ms. Norton. Why, then, is the Court interested--well, of 
course, we were told differently, but perhaps you have no 
information to that regard. But let me ask you, why, then, was 
anybody at the level of the Design Guide have any interest in 
plumbing standards or for an office----
    Judge Roth. That is a matter----
    Ms. Norton. Now, for an office. Not for the courthouse, for 
an office.
    Judge Roth. Right. That is a matter of construction costs. 
In constructing the building, if you can limit the number of 
pipes run in the building, it cuts down on the cost of 
construction. Therefore, we felt it was appropriate to take 
steps to limit the plumbing pipe runs as a cost containing 
factor.
    Ms. Norton. So you have been more interested in plumbing 
than you have in sharing courthouses. I don't know, Mr. 
Winstead or GSA will tell me that plumbing standards for 
particular offices, as opposed to a building. You might in fact 
convince me if you were talking about fewer pipes throughout 
the building, but this is in an office.
    It is very interesting that you all have gotten down to the 
point of looking at plumbing standards, because you are rather 
far afield from what we would expect you to have any sense of. 
That is why the Committee is very sensitive, because we lived 
through the era of chandeliers and high ceilings and private 
kitchens and so forth. So that is why I asked the question.
    I think people ought to alert people that if you really to 
send Congress up the wall, you just let Congress find out that 
judges have private showers in their chambers.
    Judge Roth. Private showers are not permitted in the Design 
Guide and they are no longer----
    Ms. Norton. This was, of course, for an exception, that is 
why it caught our attention. So obviously it is not in the 
Design Guide. But then why in the world would the Design Guide 
mention it as an exception? Don't you think it should be taken 
out of the Design Guide until you consult with GSA?
    Judge Roth. Absolutely.
    Ms. Norton. Thank you.
    What is the status of the two year moratorium?
    Judge Roth. The two-year moratorium expires in September of 
this year. Therefore, the Design Guide revisions will, for the 
most part, have been made by then. So, when we move forward 
with construction projects of sorely needed courthouses, we 
will incorporate the new guidelines into new planning.
    Ms. Norton. So are you going to extend the moratorium?
    Judge Roth. No, we are not. The moratorium was in place so 
that we did not design new courthouses under the old Design 
Guide. Now that those revisions are about completed, we will be 
able to move forward with designing projects in areas we have 
not----
    Ms. Norton. Well, obviously, the Committee isn't going to 
authorize any courthouses until it sees what the changes are 
and how much money they are going to save. So that would be my 
next question. If there is no moratorium, then, of course, I 
don't know what people are designing.
    Judge Roth. Well, there are 35 projects on the list that 
were stopped by the moratorium. We will proceed to move forward 
year by year, submitting new projects for design as we work 
cooperatively with GSA to determine which projects should have 
priority on the list.
    Ms. Norton. Let me go back to this 84 percent notion. You 
heard me quote from the 1996 report. I quoted from the report 
because it encapsulizes the frustration of the Committee. That 
is 10 years ago. Virtually all of those recommendations, Judge 
Roth, are still in play.
    Judge Roth. You know, I am very happy to say that we 
reformulated and reduced the overall staffing guide, so that 
what was 84 percent is now 100 percent. And the fact that we, 
after that, tried to staff at 100 percent reflects the 
reduction in the staffing formula that was made. So that the 
later 100 percent is equivalent to the earlier 84 percent.
    Ms. Norton. Well, I guess, then, we are not talking about 
the same thing. You have moved to a 100 percent----
    Judge Roth. With the new formula, yes.
    Ms. Norton. This is what I mean. A hundred percent standard 
assumes that all the staff will be on board the day the 
courthouse opens. That is the long and short of all I am 
talking about. That is what we mean by 84 percent versus 100 
percent. And we see that 100 percent standard as having forced 
an increase in the amount of space.
    Judge Roth. Well, I hope you realize now that there are two 
different formulas and they have no relationship to each other.
    Ms. Norton. I hope you realize what the 84 percent means to 
this Committee, because I have just described what it means to 
this Committee. Now, if you want to--this is what you did with 
the GAO report. You can't change the subject. The 1996 report I 
was talking about comes from the AOC's report. That report 
recommended 84 percent for planning purposes, and that means, 
that has to do with the staff that will be in the new 
courthouse. The staff that will be on board when the facility 
opens, Judge Roth. You can't say what you mean. This is what 
the AOC meant. That is what this Committee means.
    So you are talking about two different things. That is not 
what the AOC was talking about. I have just described what the 
AOC was talking bout. What the AOC was talking about was staff 
that will be on board when the new facility opens. That is what 
84 percent meant. You have proceeded to build on 100 percent 
basis.
    Judge Roth. But on a different formula, yes.
    Ms. Norton. That has had an effect on----
    Judge Roth. On a reduced staffing formula we have built on 
100 percent.
    Ms. Norton. Sorry?
    Judge Roth. On a reduced staffing formula, on a new formula 
established since 1996, the date you are speaking of. We have 
created a new formula and new staffing----
    Ms. Norton. So fewer staff will be on board when the 
courthouse opens. And, therefore, since fewer staff will be on 
board, the courthouse will have all staff on board when the 
courthouse opens.
    Judge Roth. Under the reduced formula, yes.
    Ms. Norton. I mean, you must think that we are not in the 
building business.
    Judge Roth. Under the reduced formula.
    Ms. Norton. Mr. Winstead, what does the 84 percent and 100 
percent mean in GAO terms? I am sorry, in GSA terms.
    Mr. Winstead. Well, in terms of the 84 percent was the 
original, obviously, staffing--the 84 percent was the original 
staffing, and I think the Judge is referring to the decreases 
in terms of the staffing, some 1800 staff over the last year. 
But in terms of the Design Guide----
    Ms. Norton. What do you use when you plan a building, any 
building?
    Mr. Winstead. We are using the standards in the Design 
Guide, from the standpoint, yes.
    Ms. Norton. Meaning, the number that they have reduced 
staff would be a very interesting thing to argue, but that is 
not what we are talking about here. I am trying to deal only 
with what this Committee deals with.
    Mr. Winstead. Right.
    Ms. Norton. And what this Committee--what the 84--and I am 
asking you to describe what the 84 percent means versus 100 
percent when we are talking about new construction.
    Mr. Winstead. Well, we are adhering to, both in the 
preplanning phase in terms of the office and the courtroom 
space, which is about 15 percent of the average courthouse, we 
are actually projecting based upon their staffing requirements, 
which are--and the 84 percent.
    Madam Chair, the actual formula, the formula that the Judge 
has mentioned is the reduced staffing level, which is the one 
that we are utilizing in the pre-design work.
    Ms. Norton. The reduced staff level of what?
    Mr. Winstead. In terms of----
    Ms. Norton. I am interested in the following--and would 
somebody from GSA come to the table to speak? Perhaps it is too 
technical an issue. Eighty-four percent meaning for planning 
purposes, assume 84 percent of the staff recommended for the 
new courthouse will be on board when the facility opens. That 
is what I understand it to mean.
    Mr. Winstead. Rob is in charge--if you would. As you 
requested, Rob is the head of the courthouse program.
    Ms. Norton. Whatever amount of staff they have. Whatever 
amount of staff they have, it assumes that 84 percent will be 
on board.
    Mr. Andrukonis. Those projections assumed 84 percent 
staffing what the projected 100 percent would be.
    Ms. Norton. Sorry, I can't hear you at all.
    Mr. Andrukonis. I am sorry. The shift to 100 percent 
staffing, from what we could see, resulted in larger square 
footage for the buildings.
    Ms. Norton. That is all I want to make sure we understand, 
that when you assume 100 percent will be on board, ergo, you 
need more space. And you are saying that did result in increase 
in space needs.
    Mr. Andrukonis. Yes, we saw the spaces increase when that 
change occurred.
    Ms. Norton. Thank you.
    Judge Roth. Except we changed the formula, so that----
    Ms. Norton. You changed the formula to 100 percent.
    Judge Roth. But the staffing levels we reduced. We have a 
new staffing formula, a reduced number.
    Ms. Norton. I don't even know how to make that any clearer, 
but I understand that. See, that is a different figure. We are 
trying to compare apples to apples.
    Judge Roth. Yes. One hundred percent----
    Ms. Norton. We are pleased that you reduced the number of 
people, but I don't care if you had two people or 100 people or 
1,000 people. The formula asks us, for building purposes, to 
assume how many will be on board when the facility opens.
    Judge Roth. Under the new formula, 100 percent is equal to 
what 84 percent was under the old formula.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] 30653.255
    
    Ms. Norton. Well, let us go on. I think we have an 
understanding of what happened. And GSA has clarified it, and 
maybe you and I can get together on it, or somebody.
    The staff from the AOC has supplied us with a list of 
courts that do not have a full-time assigned judge, containing 
63 courthouses. GSA has a slightly higher number. Based on your 
testimony from last year, courts from this list would be 
identified for closure. Have any such courthouses been 
identified for closure?
    Judge Roth. The Judicial Conference, in March, passed a 
recommendation that we flag courthouses by using a formula 
based on the work performed there and the cost of the 
courthouse to determine whether they are cost-effective. Now, 
these are statutorily designated places of holding court. They 
are courthouses mostly in very rural areas where, for 
accessibility to justice and for accessibility of jury pools, 
we have determined it is important to hold court. There is a 
very strong feeling, I think, among members of Congress that it 
is important to keep open some of these courthouses.
    Since 1996 we have closed 17 courthouses that did not have 
resident judges. There are courthouses that now have been 
flagged for further consideration. I discussed one of them with 
Mr. Oberstar the other day, the courthouse in Fergus Falls, 
which, although it is very small, conducts very important 
business in Northern Minnesota. I have here a list of the 17 
courthouses we have closed since 1996, which I will be happy to 
present to the Committee, and I can assure you that we are, 
every year, reviewing the courthouses to determine where 
nonresident facilities can be closed.
    Ms. Norton. Staff tells me that they have those 17, and 
that the 63 are in addition to those 17. That is what my 
question went to.
    Judge Roth. That is correct.
    Ms. Norton. I am very pleased that 17 have been closed, but 
that is not the--the 63 I am talking about are a new list.
    Judge Roth. Yes. And it is very important that some of 
these courthouses be kept open----
    Ms. Norton. Judge Roth, you will have no problem with me or 
any member here if in fact we have a situation where a 
community doesn't have the kind of access to a courthouse; you 
will find everybody on both sides of the aisle particularly 
sensitive to rural areas where in fact, if you have to travel 
too long and the rest of it. All we need is the analysis.
    You know, we are not going to give anybody carte blanche on 
these 63 courthouses. If in fact there is a list of 63 
courthouses that do not have a full-time assigned judge, we 
need to know which ones you think should be opened and which 
ones you think might in fact be closed. Now, if you have a 
rationale for keeping all 63 of them open, fine. We would like 
to have that too. But we don't have that. That is why I asked 
for that information. And we are going to get that information.
    And we are going to get that information or there are not 
going to be any more new courthouses. I don't care what 
committees you go to in the House or Senate. Because all we 
have to do is go on the floor and indicate that new courthouses 
are being built while we are not doing what we want to do for 
the elderly and for children, and that just shuts that down 
right away.
    We are the only ones that want to build courthouses, and we 
do want to build them, but we don't have any ammunition here. 
As long as we can't go back. You better believe we are not 
going to go back to our colleagues in a rural area and say we 
are closing down your courthouse. You better believe it. But we 
have a whole bunch of members here who are part of a caucus who 
would be interested in notions of that kind, and they go on the 
floor and they are trying to get us to in fact spend less money 
on every appropriation.
    So I have got to be able to justify, Mr. Shuster has got to 
be able to justify by saying, look, we are keeping this one 
open in No Name Someplace in a State because people would have 
to travel. Yes, it doesn't have a full-time assigned judge. You 
ever heard of what the framers did? They rode circuit. Yes, 
they don't have a full-time assigned judge, but this needs to 
be open because, I don't know, people have to travel 200--I 
don't even know what the mileage is.
    But we would be all open to receiving that, because we are 
not going to try to shut down a courthouse. That is very hard 
to do. So that is why the Court is in much better shape if they 
make the recommendation and we look at it. But when we don't 
have anything, then, of course, we are put in the position of 
being asked for essentially the status quo. Well, we are at the 
end of the status quo.
    I am almost through here.
    Mr. Winstead, you know what I feel about the GAO. See, the 
Courts have been the hardest agency to deal with here, because 
the Courts have assumed a position, an impossible position: 
that they simply didn't have to abide by the same rules 
everybody else has to abide by. They literally have articulated 
a position, a nonsensical position based on separation of 
powers that applies, of course, to matters of the controversy 
or, for that matter, to all kinds of other matters having to do 
with the law. But I tell you one thing, you will never find it 
written that it has anything to do with what gets built.
    So I do want you to know as critical as we have been of the 
Courts, we really do believe that GSA has been enablers, that 
they have allowed the Courts--even though the Committee has 
been very critical, certainly ever since I have been on the 
Committee, of lavish spending by the Courts. You have not 
warned the Courts that, 10 years after the report I quoted 
from, these people are going to be running out of patience.
    You have to carry these matters to the OMB, not the Courts 
essentially. You can imagine where the OMB would be on some of 
the notions we have heard here about no sharing. You know, I 
really don't want the OMB to hear that there is any agency of 
the Federal Government saying the kinds of things we have heard 
from the Courts.
    I want to ask you, though, the same question that I asked 
the GAO regarding the Courts' claim, and here I am going to 
quote them. Quoting the GAO, that ``Since 1985, rent increased 
333 percent, adjusted for inflation, using the same CPI Index 
used by the GAO. During this same period, square footage 
increased 166 percent. Non-inflation adjusted actual rent costs 
increased four times as much as square footage.''
    So would you comment on that?
    Mr. Winstead. Madam Chairman, I would be happy to. First of 
all, you know, your concern--obviously, the Judiciary is our 
biggest client in the capital programs side, getting about 50 
percent of recent capital programs in terms of revenue----
    Ms. Norton. It is your biggest client because that is all 
we build, is courthouses.
    Mr. Winstead. I understand that. I understand your concern. 
And as Commissioner over the last nine months, I have taken a 
very close look at this, and I will address the rent question. 
But I did want to mention that, you know, you are well aware of 
the issues of parody with the Federal Building Funds with 
regards with a rent exemption request. I mean, since 1990, the 
Courts have received about 36 percent of the money from the 
Federal Building Fund, while paying in about 11 percent. So 
they are getting a lot more in return, obviously, than they are 
paying in rent. So I think the rent exemption question, the GAO 
report, this Committee has addressed, and I think we are 
committed to.
    The real question I think you are raising is on the rent 
charge. Over the last 20 years, the rent charged imposed by us 
in the calculation has achieved, with CPI adjustment, those 
increases, but I think what you need to keep in mind is that 
the product, the courthouse product 20 years ago was very, very 
different than that then we have seen in the last five years or 
ten years under Design Excellence. So I think in the last five 
years the GAO----
    Ms. Norton. The product is different in what way?
    Mr. Winstead. Both in terms of the Design Guide 
applications, in terms of the tenant improvements and fixtures, 
in terms of what the Design Excellence Program has delivered 
for the courts, and in terms of major landmark public 
buildings. But if you actually look at the GAO report from 2000 
to 2005, the costs have not gone up any greater than the square 
footage.
    So I think, although from the 20 year period you see this 
great increase, in terms of the last five years it is in parody 
with the square footage increase. The courthouses are in fact 
bigger, the security costs have gone up. I mentioned in my 
testimony security costs have gone up 140 percent. You know, 
energy costs have gone up enormously in the last five years 
because of the cost of energy. So all have in fact driven that 
rent figure to the level that is quoted in the GAO report vis-
a-vis the square footage.
    Ms. Norton. And this is, of course, why----
    Mr. Winstead. But I do want to mention that it is 
disturbing to me as a new Commissioner to be before the 
Committee on an issue dealing--such a major issue with our 
major client. We are working in partnership with the Courts, 
and we will continue, Madam Chairman, to focus in on design 
excellence both in terms of new construction scoping, using 
this new Design Guide, which in the case of several courts I 
know is going to save 2 to 8 percent when implemented, in terms 
of construction costs. We are very focused on that.
    Ms. Norton. I am sorry, what is save 2 to 8 percent?
    Mr. Winstead. If you apply--a new courthouse in 
Pennsylvania that we are going to design--the new Design Guide, 
we are calculating there will be a saving in roughly 2 percent 
in cost. So we are going to continue to focus in on both the 
scoping and contained costs in these new courthouses going 
through the Design Excellence Program.
    Ms. Norton. Yes. When we sit with agencies--indeed, this 
needs to be understood--their rent payments, they who get no 
new construction--which is virtually every Federal agency--
their rent payments go up, don't they, in keeping with 
commercial market rates?
    Mr. Winstead. Yes. That is correct.
    Ms. Norton. So as security increases for a building which 
the Government doesn't own and is renting, the agency has to 
pay out of its budget, allocated by the Congress, these 
increases in rent payments assessed by the GSA.
    Mr. Winstead. That is correct.
    Ms. Norton. And those rent payments then go to the Federal 
Building Fund.
    Mr. Winstead. That is correct.
    Ms. Norton. Now, the Federal Building Fund is used to 
construct new courthouses and other new buildings. It is also 
used, is it not, for repairs? What else is it used for?
    Mr. Winstead. It is used for major and minor repairs. About 
a third of the money goes to new construction, about a third to 
minor repairs for existing owned buildings, and about a third 
to major repairs, such as the Department of Interior in recent 
years.
    Ms. Norton. So the Courts get, of course, new courthouses, 
but they also get whatever repairs they get----
    Mr. Winstead. Yes, they do.
    Ms. Norton.--they get from this Building Fund.
    Mr. Winstead. That is correct.
    Ms. Norton. Is there any agency, any single agency that 
gets--what is the next--from the Building Fund you have just 
told us what percentage the Courts get versus what percentage 
they give. What is the next percentage? I know the DOD builds 
its own.
    Mr. Winstead. The IRS and FBI are two of the other major 
ones.
    Ms. Norton. Are they anywhere close to the Courts?
    Mr. Winstead. No. No.
    Ms. Norton. And we know DOD builds its own. They are 
separate and apart.
    Mr. Winstead. That is correct.
    Ms. Norton. So the lion's share of the Building Fund, 
compared to other agencies who also have to have their repairs 
out of this Fund; if they ever get a new building, it has to 
come out of this same Fund. And they don't get--the Courts are 
mostly in--are almost always in owned space, as opposed to 
rental space.
    Mr. Winstead. Largely. There are some rental use 
courthouses, but the majority----
    Ms. Norton. And the reason is it is a courthouse. So we 
don't rent courthouses.
    Mr. Winstead. Right.
    Ms. Norton. So the courthouses, unlike other agencies, all 
of whom want a new building--the other people are in leased 
buildings, and they are paying into the Federal Building Fund 
in order to get whatever they can get in repairs and whatever 
construction we do--because we do not appropriate money for 
buildings for courthouses, we, in fact, build out of this Fund 
that every agency pays into through the rent they pay to the 
Federal Building Fund. Is that right?
    Mr. Winstead. That is correct. The demand on the Federal 
Building Fund is ever increasing, and the courthouse program is 
assumed a big portion of that, but, as I mentioned earlier, I 
think the focus of this Committee and the directives a year 
ago, I mentioned the improvements and the actions in containing 
costs through both the Design Excellence Program and in terms 
of operating costs, and I think we will continue--you will soon 
see some savings and results as a part of that. But you are 
absolutely correct, the demand and consumption of the capital 
money in the Federal Building Fund is dominated by the Courts 
currently.
    Ms. Norton. So it is really ass backwards, if you will 
forgive me, about who gets what out of the Federal Building 
Fund. And if agencies were to have a true understanding--they 
who are struggling just to keep alive in this budget period, 
who always complain about rents and how come they are paying 
these increases--where the lion's share of the money would go, 
I think the complaints would be heard all the way down 
Pennsylvania Avenue.
    One more question. GSA has offered to renegotiate certain 
leases for the Courts in order to save them money. That is 
something everybody always wants. Is this the first time GSA 
has offered to renegotiate leases for the Courts?
    Mr. Winstead. No. We are in the process, as I mentioned in 
my testimony, of some 14 lease negotiations, and we actually 
have recommended a number of those, and we are proceeding to 
try to achieve savings. We did, for the IRS, recently negotiate 
several leases and got in the neighborhood of $700,000 annual 
savings.
    Ms. Norton. So in--of course, Courts have some personnel in 
leased space.
    Mr. Winstead. Correct.
    Ms. Norton. And it is those leased space that you are 
trying to renegotiate leases. Have there been any results from 
that? That is one kind of quick and easy way to try to save 
some money.
    Mr. Winstead. Yes. We have actually--as I mentioned, we 
have tried to look at--there are several conditions that you 
have to have. The tenants have obviously got to be willing to 
continue to provide the space----
    Ms. Norton. Sorry?
    Mr. Winstead. The tenant--we have actually, as I mentioned, 
for the IRS we have offered about 14----
    Ms. Norton. No, I am talking about for the Courts.
    Mr. Winstead. No. We have offered 14 leases for 
renegotiation with the Courts, and we keep moving to try to 
achieve reduction through those negotiations.
    Ms. Norton. Have in fact any of the Court leases been 
renegotiated?
    Mr. Winstead. To date, no, but we are still very focused on 
that with the Courts, and, obviously, their consent is needed 
in order to renegotiate those leases as a party.
    Ms. Norton. I am really, really all mixed up here. If you 
are renegotiating the lease, then the Courts--you would already 
have talked to the Courts.
    Judge Roth. We are working with GSA to accomplish this.
    Ms. Norton. But, I mean, renegotiating a lease doesn't have 
anything to do with the Courts. They don't know what in the 
world to do if you are renegotiating leases. I mean, I am 
really trying to figure this out. If in fact a court can pay 
less money because GSA, who alone knows how to renegotiate a 
lease--Norton doesn't know how to do that.
    Mr. Winstead. Right.
    Ms. Norton. Roth doesn't know how to do that. Are you 
renegotiating leases? And what are you talking about the 
Courts? What could they possibly tell you about renegotiating 
the rent down?
    Mr. Winstead. Madam Chair, we are--obviously, that was one 
of the things a year ago we said we would aggressively pursue. 
We have. In the last two years we have looked at some 60 
leases. We have recommended 14 for renegotiation and we are 
proceeding to accomplish that.
    The reality is we have to have--you have to have consent, 
you have got to obviously have a fixed term that needs to be 
approved by the Courts. So we have to be party with them in 
terms of the rent commitments and the extent of the leases. But 
we are pushing hard on that, as directed by the Committee.
    Ms. Norton. So nothing has been renegotiated yet.
    Mr. Winstead. No. But we have 14 we are working on.
    Ms. Norton. That is outrageous, Mr. Winstead. I mean, you 
know, that one really escapes me altogether.
    Mr. Winstead. I will get back to this Committee the details 
on all the leases that are currently----
    Ms. Norton. What in the world is there--you know, once--you 
know, if my real estate agent tells me this is a way to save 
some money, let me renegotiate a lease, I am really not going 
to micro-manage him, because I don't know what in the world I 
am doing. So I really can't understand what the Courts have to 
do with saving the taxpayers' money by renegotiating leases 
pursuant to the policy of this Committee.
    Mr. Winstead. You are correct, we are the real estate agent 
for the Courts in this regard. We do need their consent to the 
long-term in terms of the fixed term commitments and the 
renegotiated lease, and we are going to push to close as many 
of these as we can. We have looked at 60; we have recommended 
14, and it is an aggressive focus----
    Ms. Norton. When were the 14 recommended?
    Mr. Winstead. Sorry?
    Ms. Norton. When did you recommend the 14?
    Mr. Winstead. My understanding is that we actually--14 were 
recommended last year, in about September of last year, just 
about the end of last year. And we will report to----
    Ms. Norton. I want you to submit those 14 to the Committee.
    Mr. Winstead. OK. I would be happy to.
    Ms. Norton. I want to know what you have recommended.
    Mr. Winstead. I will do that.
    Ms. Norton. I want to know what they are paying now, and I 
want to know what is holding them up. I mean, I just think, Mr. 
Winstead, this is quite outrageous. I am not sure that the 
Courts could tell you anything except a guesstimate on how long 
that they would want to remain in the building. I also don't 
know how they could do that without consulting with you.
    Mr. Winstead. And they are. It can't be a unilateral 
action.
    Ms. Norton. And I don't know why you would do anything but 
recommended to them something that I don't think they would be 
in a position to rebut, how long you think they ought to be in 
there. And, meanwhile, who is carrying this are the taxpayers 
of the United States of America. And you haven't renegotiated a 
single lease.
    Mr. Winstead. We are----
    Ms. Norton. Now perhaps you understand our impatience.
    Mr. Winstead. I totally understand, and we will get you all 
14 leases.
    Ms. Norton. I would like to see the re-leases. I would like 
you to submit the re-leases within 10 days. I want to know 
where they are located, I want to know the state of the 
negotiation--when I say submit to me, I am talking about 
submitting them to the Chairman, obviously--and I want to know 
when--we want to know when you believe you can begin to 
negotiate.
    The reason I am so up in arms about this is let's assume 
you get ``permission,'' whatever in the world that--here is 
permission to save me some money, OK. You get the permission. 
The hard part is renegotiating the lease, Mr. Winstead. I don't 
want you to renegotiate my lease if I am a party. So you are 
going to have to renegotiate the lease, and, therefore, you 
know, the part on the other end just likes it just the way it 
is. And the only reason you are in a position to renegotiate at 
all is not because of the judges or the court, it is because a 
big player in every market is the GSA.
    So I am at a loss to understand why we are still carrying 
those leases when--not only those 14, but I want to know why 
there isn't wholesale renegotiation of leases going on, at a 
minimum, to staunch the bleeding.
    Mr. Winstead. OK, Madam Chair, I will get you those leases. 
I mentioned that we presented 60 two years ago to the Courts. 
Following their review, they have analyzed these 14 that they 
want to proceed on that meet their long-term needs, and I will 
get you the status of the 14.
    Ms. Norton. Thank you, Mr. Winstead. You know, and I want 
to go to heaven, but that is what has brought us to this level 
of frustration.
    Mr. Winstead. I understand.
    Ms. Norton. Because we always hear, of course we intend to 
do the right thing. But because we never get there, the cash 
register is running. I ain't paying, but the taxpayers are 
paying, and we cannot, with a straight face, justify what is 
happening to our colleagues in the Congress.
    I want to call a recess until Mr. Shuster returns, and that 
will be whenever he returns.
    The Committee stands in recess.
    Mr. Winstead. Thank you.
    [Recess.]
    Mr. Shuster. [Presiding] Sorry for that. Now I have a time 
constraint on me that we have to be out of here at 1:15, so I 
am going to submit some questions to both of you that you might 
be able to answer in writing, but I do have--I guess I only 
have time for one question.
    Judge Roth, I know you started to proceed with a space 
utilization study. My question is, and my concern is, how 
independent is it going to be? I guess the Federal Judiciary 
Center is going to do it. But I also understand--and tell me if 
I am correct--that the Judicial Conference has to approve any 
report that they put out.
    That, to me, says that you might not approve it if it 
doesn't come out the way you want to. I think it is important 
for any study to be done to let the study happen, and wherever 
the chips fall, they fall. So could you talk to me about that? 
Is that true, that the Judicial Conference is going to approve 
or potentially disapprove a report?
    Judge Roth. I don't know, because it is not through my 
committee that the study is being done. But we can get back to 
you on that.
    Mr. Shuster. OK. I think that is--especially in light of 
also what we heard the GAO say that happened in some of those 
courthouses, some of the officials were disruptive. And it is a 
great concern that a study that comes out is not going to--that 
it doesn't turn out the way you folks want it to, that you are 
going to have some influence on it.
    Judge Roth. Representative, let me clarify the question of 
the GAO study. We received the draft statement of facts from 
GAO and we sent them out to the interested courts where GAO had 
visited for the court's comments. We got comments back, "that 
this is not what I said." We did not go around and ask who 
talked to GAO and who said what. We sent them the draft report 
and their response to us was "this isn't what I said" or "this 
is only half of what I said." And that is what raised our 
concern about the GAO report.
    Mr. Shuster. OK, I was just informed that the Judiciary 
sent a letter to the GAO asking them who they spoke to. And in 
a situation like this,----
    Judge Roth. Well, that was because we were getting comments 
from the courts they visited saying, "we didn't say this" and 
"no one here said this." So we were concerned.
    Mr. Shuster. All right. Well, again, to have an unbiased 
report means on both sides you have got to look at it, you have 
got to keep your hands off it to----
    Judge Roth. I agree absolutely.
    Mr. Shuster.--as I said, where the chips fall, that is 
where they fall, and that is what is going to be so important.
    Now, the other thing I have a concern about the study is 
you are talking about it being completed in 2008. You know, we 
really need to see that thing sooner, because as we have made 
quite clear, there is a great concern about the amount of money 
that is being spent on courthouses that we have approved.
    There are courthouses, you know, one by one you can look at 
them and say--like San Diego, for instance, has got a 
tremendous increase in the number of cases and activity there. 
But you really need to look at the whole system that you have 
and do long-term strategic planning with the GSA to decide do 
you need to downsize in places, because in the 14 courthouses 
that they traveled to do the study on the rent, I mean, there 
were many cases, as you heard Mr. Goldstein talk about, where 
you have courtrooms not being utilized.
    Judge Roth. Could I----
    Mr. Shuster. Sure.
    Judge Roth.--say that in building a courthouse, it is 
necessary to build for the future, and our workload has grown, 
and the number of judges has grown. There is, for instance, a 
judgeship bill that has not been passed, but that we hope will 
be passed. And if we build a courthouse which is absolutely 
full the day it is opened, with the growth of the courts, with 
new judges, with an increasing caseload, we will not have room 
to expand over the ten-year period.
    GSA and we agreed at a partnering session a couple of years 
ago that a courthouse should be built for the ten-year period 
from the date of completion, and that means that there will be 
more judges coming on board during that period in certain 
areas, and that we need to incorporate space in those 
courthouses for that.
    Now, for instance, there is a photograph in the GAO study 
of a future courtroom that is being used for storage space. 
What GAO doesn't mention in the study is that the court closed 
down rented storage space elsewhere and brought those items 
into the courthouse to store in what will become, five years 
down the pike, a courtroom. In the meantime, we stopped paying 
rent for storage space elsewhere, and are using that empty 
space now for the storage that we rented space for before.
    Mr. Shuster. And then we also talked about a courthouse 
that was 30 years old that is not being utilized. Again, that 
is why there is such a great need in a shorter period of time 
to get this space utilization study, because once--as I said to 
you before in conversations, we know that there are courthouses 
that need to be built and we know there are courthouses that 
need to be expanded, but not all of them do.
    And we have got to look and learn like any organization, 
any business has to do, look at what they are doing, study it. 
We have to utilize it to the best of our abilities because it 
is the taxpayers' dollars. You are not exempt from--the 
Judiciary, the Executive Branch, the Legislative Branch, none 
of us are exempt from doing our best with the Federal dollar, 
the taxpayers' dollar. And, again, I don't believe that has 
occurred, but it needs to occur. And that is the sticking point 
in all this.
    Judge Roth. The 30 year old courthouse in Baltimore was 
designed prior to the sdoption of the Design Guide. The four 
courtrooms that are not being used were designed by a judge who 
thought we could have little hearing rooms. They haven't worked 
out, so we use them for storage space. The plan is now to take 
those four unusable small courtrooms and combine them into two 
usable courtrooms.
    Mr. Shuster. Well, again, my time has expired. As you can 
see from my time constraints here, we are utilizing this 
committee room. More things go on here than just--I don't get 
to just have this committee room to myself, unfortunately, 
today. We will be talking to you. Again, I stress the need for 
that study to be done in a shorter amount of time and to look 
at sharing courtrooms for judges. So, with that, I----
    Judge Roth. Judge Tunheim would like to come and talk to 
you. He would be very happy to come and talk to you about that.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] 30653.256
    
    Mr. Shuster. I would love to engage in that conversation at 
length.
    Judge Roth. Great. Great.
    Mr. Shuster. Well, thank you all for being here. 
Commissioner, again, sorry we didn't get a chance, but I will 
get written questions out to both of you, as well as other 
members of the Committee. But thank you for your testimony 
today.
    I would like to ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing and unanimous consent that during such time as 
the record remains open, additional comments offered by 
individuals or groups may be included in today's record. 
Without objection, so ordered.
    I would like to thank you again for being here today. And 
the Committee stands in adjournment.
    Judge Roth. Thank you.
    [Whereupon, at 1:22 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 30653.001
    
    [GRAPHIC] [TIFF OMITTED] 30653.002
    
    [GRAPHIC] [TIFF OMITTED] 30653.003
    
    [GRAPHIC] [TIFF OMITTED] 30653.004
    
    [GRAPHIC] [TIFF OMITTED] 30653.005
    
    [GRAPHIC] [TIFF OMITTED] 30653.006
    
    [GRAPHIC] [TIFF OMITTED] 30653.007
    
    [GRAPHIC] [TIFF OMITTED] 30653.008
    
    [GRAPHIC] [TIFF OMITTED] 30653.009
    
    [GRAPHIC] [TIFF OMITTED] 30653.010
    
    [GRAPHIC] [TIFF OMITTED] 30653.011
    
    [GRAPHIC] [TIFF OMITTED] 30653.012
    
    [GRAPHIC] [TIFF OMITTED] 30653.013
    
    [GRAPHIC] [TIFF OMITTED] 30653.014
    
    [GRAPHIC] [TIFF OMITTED] 30653.015
    
    [GRAPHIC] [TIFF OMITTED] 30653.016
    
    [GRAPHIC] [TIFF OMITTED] 30653.017
    
    [GRAPHIC] [TIFF OMITTED] 30653.018
    
    [GRAPHIC] [TIFF OMITTED] 30653.019
    
    [GRAPHIC] [TIFF OMITTED] 30653.020
    
    [GRAPHIC] [TIFF OMITTED] 30653.021
    
    [GRAPHIC] [TIFF OMITTED] 30653.022
    
    [GRAPHIC] [TIFF OMITTED] 30653.023
    
    [GRAPHIC] [TIFF OMITTED] 30653.024
    
    [GRAPHIC] [TIFF OMITTED] 30653.025
    
    [GRAPHIC] [TIFF OMITTED] 30653.026
    
    [GRAPHIC] [TIFF OMITTED] 30653.027
    
    [GRAPHIC] [TIFF OMITTED] 30653.028
    
    [GRAPHIC] [TIFF OMITTED] 30653.029
    
    [GRAPHIC] [TIFF OMITTED] 30653.030
    
    [GRAPHIC] [TIFF OMITTED] 30653.031
    
    [GRAPHIC] [TIFF OMITTED] 30653.032
    
    [GRAPHIC] [TIFF OMITTED] 30653.033
    
    [GRAPHIC] [TIFF OMITTED] 30653.034
    
    [GRAPHIC] [TIFF OMITTED] 30653.035
    
    [GRAPHIC] [TIFF OMITTED] 30653.036
    
    [GRAPHIC] [TIFF OMITTED] 30653.037
    
    [GRAPHIC] [TIFF OMITTED] 30653.038
    
    [GRAPHIC] [TIFF OMITTED] 30653.039
    
    [GRAPHIC] [TIFF OMITTED] 30653.040
    
    [GRAPHIC] [TIFF OMITTED] 30653.041
    
    [GRAPHIC] [TIFF OMITTED] 30653.042
    
    [GRAPHIC] [TIFF OMITTED] 30653.043
    
    [GRAPHIC] [TIFF OMITTED] 30653.044
    
    [GRAPHIC] [TIFF OMITTED] 30653.045
    
    [GRAPHIC] [TIFF OMITTED] 30653.046
    
    [GRAPHIC] [TIFF OMITTED] 30653.047
    
    [GRAPHIC] [TIFF OMITTED] 30653.048
    
    [GRAPHIC] [TIFF OMITTED] 30653.049
    
    [GRAPHIC] [TIFF OMITTED] 30653.050
    
    [GRAPHIC] [TIFF OMITTED] 30653.051
    
    [GRAPHIC] [TIFF OMITTED] 30653.052
    
    [GRAPHIC] [TIFF OMITTED] 30653.053
    
    [GRAPHIC] [TIFF OMITTED] 30653.054
    
    [GRAPHIC] [TIFF OMITTED] 30653.055
    
    [GRAPHIC] [TIFF OMITTED] 30653.056
    
    [GRAPHIC] [TIFF OMITTED] 30653.057
    
    [GRAPHIC] [TIFF OMITTED] 30653.058
    
    [GRAPHIC] [TIFF OMITTED] 30653.059
    
    [GRAPHIC] [TIFF OMITTED] 30653.060
    
    [GRAPHIC] [TIFF OMITTED] 30653.061
    
    [GRAPHIC] [TIFF OMITTED] 30653.062
    
    [GRAPHIC] [TIFF OMITTED] 30653.063
    
    [GRAPHIC] [TIFF OMITTED] 30653.064
    
    [GRAPHIC] [TIFF OMITTED] 30653.065
    
    [GRAPHIC] [TIFF OMITTED] 30653.066
    
    [GRAPHIC] [TIFF OMITTED] 30653.067
    
    [GRAPHIC] [TIFF OMITTED] 30653.068
    
    [GRAPHIC] [TIFF OMITTED] 30653.069
    
    [GRAPHIC] [TIFF OMITTED] 30653.070
    
    [GRAPHIC] [TIFF OMITTED] 30653.071
    
    [GRAPHIC] [TIFF OMITTED] 30653.072
    
    [GRAPHIC] [TIFF OMITTED] 30653.073
    
    [GRAPHIC] [TIFF OMITTED] 30653.074
    
    [GRAPHIC] [TIFF OMITTED] 30653.075
    
    [GRAPHIC] [TIFF OMITTED] 30653.076
    
    [GRAPHIC] [TIFF OMITTED] 30653.077
    
    [GRAPHIC] [TIFF OMITTED] 30653.078
    
    [GRAPHIC] [TIFF OMITTED] 30653.079
    
    [GRAPHIC] [TIFF OMITTED] 30653.080
    
    [GRAPHIC] [TIFF OMITTED] 30653.081
    
    [GRAPHIC] [TIFF OMITTED] 30653.082
    
    [GRAPHIC] [TIFF OMITTED] 30653.083
    
    [GRAPHIC] [TIFF OMITTED] 30653.084
    
    [GRAPHIC] [TIFF OMITTED] 30653.085
    
    [GRAPHIC] [TIFF OMITTED] 30653.086
    
    [GRAPHIC] [TIFF OMITTED] 30653.087
    
    [GRAPHIC] [TIFF OMITTED] 30653.088
    
    [GRAPHIC] [TIFF OMITTED] 30653.089
    
    [GRAPHIC] [TIFF OMITTED] 30653.090
    
    [GRAPHIC] [TIFF OMITTED] 30653.091
    
    [GRAPHIC] [TIFF OMITTED] 30653.092
    
    [GRAPHIC] [TIFF OMITTED] 30653.093
    
    [GRAPHIC] [TIFF OMITTED] 30653.094
    
    [GRAPHIC] [TIFF OMITTED] 30653.095
    
    [GRAPHIC] [TIFF OMITTED] 30653.096
    
    [GRAPHIC] [TIFF OMITTED] 30653.097
    
    [GRAPHIC] [TIFF OMITTED] 30653.098
    
    [GRAPHIC] [TIFF OMITTED] 30653.099
    
    [GRAPHIC] [TIFF OMITTED] 30653.100
    
    [GRAPHIC] [TIFF OMITTED] 30653.101
    
    [GRAPHIC] [TIFF OMITTED] 30653.102
    
    [GRAPHIC] [TIFF OMITTED] 30653.103
    
    [GRAPHIC] [TIFF OMITTED] 30653.104
    
    [GRAPHIC] [TIFF OMITTED] 30653.105
    
    [GRAPHIC] [TIFF OMITTED] 30653.106
    
    [GRAPHIC] [TIFF OMITTED] 30653.107
    
    [GRAPHIC] [TIFF OMITTED] 30653.108
    
    [GRAPHIC] [TIFF OMITTED] 30653.109
    
    [GRAPHIC] [TIFF OMITTED] 30653.110
    
    [GRAPHIC] [TIFF OMITTED] 30653.111
    
    [GRAPHIC] [TIFF OMITTED] 30653.112
    
    [GRAPHIC] [TIFF OMITTED] 30653.113
    
    [GRAPHIC] [TIFF OMITTED] 30653.114
    
    [GRAPHIC] [TIFF OMITTED] 30653.115
    
    [GRAPHIC] [TIFF OMITTED] 30653.116
    
    [GRAPHIC] [TIFF OMITTED] 30653.117
    
    [GRAPHIC] [TIFF OMITTED] 30653.118
    
    [GRAPHIC] [TIFF OMITTED] 30653.119
    
    [GRAPHIC] [TIFF OMITTED] 30653.120
    
    [GRAPHIC] [TIFF OMITTED] 30653.121
    
    [GRAPHIC] [TIFF OMITTED] 30653.122
    
    [GRAPHIC] [TIFF OMITTED] 30653.123
    
    [GRAPHIC] [TIFF OMITTED] 30653.124
    
    [GRAPHIC] [TIFF OMITTED] 30653.125
    
    [GRAPHIC] [TIFF OMITTED] 30653.126
    
    [GRAPHIC] [TIFF OMITTED] 30653.127
    
    [GRAPHIC] [TIFF OMITTED] 30653.128
    
    [GRAPHIC] [TIFF OMITTED] 30653.129
    
    [GRAPHIC] [TIFF OMITTED] 30653.130
    
    [GRAPHIC] [TIFF OMITTED] 30653.131
    
    [GRAPHIC] [TIFF OMITTED] 30653.132
    
    [GRAPHIC] [TIFF OMITTED] 30653.133
    
    [GRAPHIC] [TIFF OMITTED] 30653.134
    
    [GRAPHIC] [TIFF OMITTED] 30653.135
    
    [GRAPHIC] [TIFF OMITTED] 30653.136
    
    [GRAPHIC] [TIFF OMITTED] 30653.137
    
    [GRAPHIC] [TIFF OMITTED] 30653.138
    
    [GRAPHIC] [TIFF OMITTED] 30653.139
    
    [GRAPHIC] [TIFF OMITTED] 30653.140
    
    [GRAPHIC] [TIFF OMITTED] 30653.141
    
    [GRAPHIC] [TIFF OMITTED] 30653.142
    
    [GRAPHIC] [TIFF OMITTED] 30653.143
    
    [GRAPHIC] [TIFF OMITTED] 30653.144
    
    [GRAPHIC] [TIFF OMITTED] 30653.145
    
    [GRAPHIC] [TIFF OMITTED] 30653.146
    
    [GRAPHIC] [TIFF OMITTED] 30653.147
    
    [GRAPHIC] [TIFF OMITTED] 30653.148
    
    [GRAPHIC] [TIFF OMITTED] 30653.149
    
    [GRAPHIC] [TIFF OMITTED] 30653.150
    
    [GRAPHIC] [TIFF OMITTED] 30653.151
    
    [GRAPHIC] [TIFF OMITTED] 30653.152
    
    [GRAPHIC] [TIFF OMITTED] 30653.153
    
    [GRAPHIC] [TIFF OMITTED] 30653.154
    
    [GRAPHIC] [TIFF OMITTED] 30653.155
    
    [GRAPHIC] [TIFF OMITTED] 30653.156
    
    [GRAPHIC] [TIFF OMITTED] 30653.157
    
    [GRAPHIC] [TIFF OMITTED] 30653.158
    
    [GRAPHIC] [TIFF OMITTED] 30653.159
    
    [GRAPHIC] [TIFF OMITTED] 30653.160
    
    [GRAPHIC] [TIFF OMITTED] 30653.161
    
    [GRAPHIC] [TIFF OMITTED] 30653.162
    
    [GRAPHIC] [TIFF OMITTED] 30653.163
    
    [GRAPHIC] [TIFF OMITTED] 30653.164
    
    [GRAPHIC] [TIFF OMITTED] 30653.165
    
    [GRAPHIC] [TIFF OMITTED] 30653.166
    
    [GRAPHIC] [TIFF OMITTED] 30653.167
    
    [GRAPHIC] [TIFF OMITTED] 30653.168
    
    [GRAPHIC] [TIFF OMITTED] 30653.169
    
    [GRAPHIC] [TIFF OMITTED] 30653.170
    
    [GRAPHIC] [TIFF OMITTED] 30653.171
    
    [GRAPHIC] [TIFF OMITTED] 30653.172
    
    [GRAPHIC] [TIFF OMITTED] 30653.173
    
    [GRAPHIC] [TIFF OMITTED] 30653.174
    
    [GRAPHIC] [TIFF OMITTED] 30653.175
    
    [GRAPHIC] [TIFF OMITTED] 30653.176
    
    [GRAPHIC] [TIFF OMITTED] 30653.177
    
    [GRAPHIC] [TIFF OMITTED] 30653.178
    
    [GRAPHIC] [TIFF OMITTED] 30653.179
    
    [GRAPHIC] [TIFF OMITTED] 30653.180
    
    [GRAPHIC] [TIFF OMITTED] 30653.181
    
    [GRAPHIC] [TIFF OMITTED] 30653.182
    
    [GRAPHIC] [TIFF OMITTED] 30653.183
    
    [GRAPHIC] [TIFF OMITTED] 30653.184
    
    [GRAPHIC] [TIFF OMITTED] 30653.185
    
    [GRAPHIC] [TIFF OMITTED] 30653.186
    
    [GRAPHIC] [TIFF OMITTED] 30653.187
    
    [GRAPHIC] [TIFF OMITTED] 30653.188
    
    [GRAPHIC] [TIFF OMITTED] 30653.189
    
    [GRAPHIC] [TIFF OMITTED] 30653.190
    
    [GRAPHIC] [TIFF OMITTED] 30653.191
    
    [GRAPHIC] [TIFF OMITTED] 30653.192
    
    [GRAPHIC] [TIFF OMITTED] 30653.193
    
    [GRAPHIC] [TIFF OMITTED] 30653.194
    
    [GRAPHIC] [TIFF OMITTED] 30653.195
    
    [GRAPHIC] [TIFF OMITTED] 30653.196
    
    [GRAPHIC] [TIFF OMITTED] 30653.197
    
    [GRAPHIC] [TIFF OMITTED] 30653.198
    
    [GRAPHIC] [TIFF OMITTED] 30653.199
    
    [GRAPHIC] [TIFF OMITTED] 30653.200
    
    [GRAPHIC] [TIFF OMITTED] 30653.201
    
    [GRAPHIC] [TIFF OMITTED] 30653.202
    
    [GRAPHIC] [TIFF OMITTED] 30653.203
    
    [GRAPHIC] [TIFF OMITTED] 30653.204
    
    [GRAPHIC] [TIFF OMITTED] 30653.205
    
    [GRAPHIC] [TIFF OMITTED] 30653.206
    
    [GRAPHIC] [TIFF OMITTED] 30653.207
    
    [GRAPHIC] [TIFF OMITTED] 30653.208
    
    [GRAPHIC] [TIFF OMITTED] 30653.209
    
    [GRAPHIC] [TIFF OMITTED] 30653.210
    
    [GRAPHIC] [TIFF OMITTED] 30653.211
    
    [GRAPHIC] [TIFF OMITTED] 30653.212
    
    [GRAPHIC] [TIFF OMITTED] 30653.213
    
    [GRAPHIC] [TIFF OMITTED] 30653.214
    
    [GRAPHIC] [TIFF OMITTED] 30653.215
    
    [GRAPHIC] [TIFF OMITTED] 30653.216
    
    [GRAPHIC] [TIFF OMITTED] 30653.217
    
    [GRAPHIC] [TIFF OMITTED] 30653.218
    
    [GRAPHIC] [TIFF OMITTED] 30653.219
    
    [GRAPHIC] [TIFF OMITTED] 30653.220
    
    [GRAPHIC] [TIFF OMITTED] 30653.221
    
    [GRAPHIC] [TIFF OMITTED] 30653.222
    
    [GRAPHIC] [TIFF OMITTED] 30653.223
    
    [GRAPHIC] [TIFF OMITTED] 30653.224
    
    [GRAPHIC] [TIFF OMITTED] 30653.225
    
    [GRAPHIC] [TIFF OMITTED] 30653.226
    
    [GRAPHIC] [TIFF OMITTED] 30653.227
    
    [GRAPHIC] [TIFF OMITTED] 30653.228
    
    [GRAPHIC] [TIFF OMITTED] 30653.229
    
    [GRAPHIC] [TIFF OMITTED] 30653.230
    
    [GRAPHIC] [TIFF OMITTED] 30653.231
    
    [GRAPHIC] [TIFF OMITTED] 30653.232
    
    [GRAPHIC] [TIFF OMITTED] 30653.233
    
    [GRAPHIC] [TIFF OMITTED] 30653.234
    
    [GRAPHIC] [TIFF OMITTED] 30653.235
    
    [GRAPHIC] [TIFF OMITTED] 30653.236
    
    [GRAPHIC] [TIFF OMITTED] 30653.237
    
    [GRAPHIC] [TIFF OMITTED] 30653.238
    
    [GRAPHIC] [TIFF OMITTED] 30653.239
    
    [GRAPHIC] [TIFF OMITTED] 30653.240
    
    [GRAPHIC] [TIFF OMITTED] 30653.241
    
    [GRAPHIC] [TIFF OMITTED] 30653.242
    
    [GRAPHIC] [TIFF OMITTED] 30653.243
    
    [GRAPHIC] [TIFF OMITTED] 30653.244
    
    [GRAPHIC] [TIFF OMITTED] 30653.245
    
    [GRAPHIC] [TIFF OMITTED] 30653.246
    
    [GRAPHIC] [TIFF OMITTED] 30653.247
    
    [GRAPHIC] [TIFF OMITTED] 30653.248
    
    [GRAPHIC] [TIFF OMITTED] 30653.249
    
    [GRAPHIC] [TIFF OMITTED] 30653.250
    
    [GRAPHIC] [TIFF OMITTED] 30653.251
    
    [GRAPHIC] [TIFF OMITTED] 30653.252
    
    [GRAPHIC] [TIFF OMITTED] 30653.253
    
    [GRAPHIC] [TIFF OMITTED] 30653.254
    
                                    

</pre></body></html>
